<html>
<title> - H.R. 302, H.R. 758, H.R. 817, H.R. 845, H.R. 846, AND H.R. 2147</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
    H.R. 302, H.R. 758, H.R. 817, H.R. 845, H.R. 846, AND H.R. 2147

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 13, 2011

                               __________

                           Serial No. 112-59

                               __________

       Printed for the use of the Committee on Natural Resources





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

68-322 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                







                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 13, 2011......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     5
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona, Statement submitted for the record.......    45
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     7
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     8
        Prepared statement on....................................     9

Statement of Witnesses:
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina....................................    18
        Prepared statement on H.R. 302...........................    19
    Hatch, Hon. Orrin, a U.S. Senator from the State of Utah.....    10
        Prepared statement on H.R. 2147..........................    12
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................    16
        Prepared statement on H.R. 817...........................    17
    Labrador, Hon. Raul, a Representative in Congress from the 
      State of Idaho.............................................    20
        Prepared statement on H.R. 846...........................    21
    Rasker, Ray, Ph.D., Executive Director, Headwaters Economics.    25
        Prepared statement on H.R. 302, H.R. 758, H.R. 817, H.R. 
          845, H.R. 846, and H.R. 2147...........................    26
    Rehberg, Hon. Dennis, a Representative in Congress from the 
      State of Montana...........................................    13
        Prepared statement on H.R. 845...........................    15
    Taylor, Hon. Jerry, Mayor, Escalante City, Utah..............    33
        Prepared statement on H.R. 302, H.R. 758, H.R. 817, H.R. 
          845, H.R. 846, H.R. 2147...............................    34

Additional materials supplied:
    Nunes, Hon. Devin, a Representative in Congress from the 
      State of California, Statement submitted for the record on 
      H.R. 758...................................................    46
    Society for American Archaeology, Statement submitted for the 
      record on H.R. 302, H.R. 758, H.R. 817, H.R. 845, H.R. 846, 
      and H.R. 2147..............................................    47
    U.S. Department of the Interior, Statement submitted for the 
      record on H.R. 302, H.R. 758, H.R. 817, H.R. 845, H.R. 846, 
      and H.R. 2147..............................................    48
                                     

LEGISLATIVE HEARING ON H.R. 302, TO PROVIDE FOR STATE APPROVAL 
        OF NATIONAL MONUMENTS, AND FOR OTHER PURPOSES. 
        ``PRESERVE LAND FREEDOM FOR AMERICANS ACT OF 2011''; 
        H.R. 758, TO AMEND THE ACT POPULARLY KNOWN AS THE 
        ANTIQUITIES ACT OF 1906 TO REQUIRE CERTAIN PROCEDURES 
        FOR DESIGNATING NATIONAL MONUMENTS, AND FOR OTHER 
        PURPOSES. ``NATIONAL MONUMENT DESIGNATION TRANSPARENCY 
        AND ACCOUNTABILITY ACT''; H.R. 817, TO AMEND THE 
        ANTIQUITIES ACT OF 1906 TO PLACE ADDITIONAL 
        REQUIREMENTS ON THE ESTABLISHMENT OF NATIONAL MONUMENTS 
        UNDER THAT ACT, AND FOR OTHER PURPOSES; H.R. 845, TO 
        PROHIBIT THE FURTHER EXTENSION OR ESTABLISHMENT OF 
        NATIONAL MONUMENTS IN MONTANA, EXCEPT BY EXPRESS 
        AUTHORIZATION OF CONGRESS, AND FOR OTHER PURPOSES. 
        ``MONTANA LAND SOVEREIGNTY ACT''; H.R. 846, TO PROHIBIT 
        THE FURTHER EXTENSION OR ESTABLISHMENT OF NATIONAL 
        MONUMENTS IN IDAHO, EXCEPT BY EXPRESS AUTHORIZATION OF 
        CONGRESS, AND FOR OTHER PURPOSES. ``IDAHO LAND 
        SOVEREIGNTY ACT''; AND H.R. 2147, TO PROHIBIT THE 
        FURTHER EXTENSION OR ESTABLISHMENT OF NATIONAL 
        MONUMENTS IN UTAH EXCEPT BY EXPRESS AUTHORIZATION OF 
        CONGRESS. ``UTAH LAND SOVEREIGNTY ACT.''
                              ----------                              


                      Tuesday, September 13, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1334, Longworth House Office Building, The Honorable Rob 
Bishop [Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Duncan, McClintock, 
Labrador, Gosar, Grijalva, Kildee, Holt, and Markey [ex 
officio].
    Mr. Bishop. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum.
    The Subcommittee on National Parks, Forests and Public 
Lands is meeting today to hear testimony on a number of pieces 
of legislation. They will include H.R. 302, ``Preserve Land 
Freedom for Americans Act of 2011''; H.R. 758, ``National 
Monument Designation Transparency and Accountability Act''; 
H.R. 817, a bill to amend the Antiquities Act of 1906 to place 
additional requirements on the establishment of national 
monuments under the Act, and for other purposes; H.R. 845, the 
Montana Land Sovereignty Act; H.R. 846, ``Idaho Land 
Sovereignty Act''; and H.R. 2147, ``Utah Land Sovereignty 
Act.''
    Under Committee Rules, the opening statements are limited 
to the Chairman and the Ranking Member of the Subcommittee and 
the Full Committee. However, I ask unanimous consent to include 
any other Members' opening statements in the hearing record if 
submitted to the clerk by the close of business today. Hearing 
no objection, so ordered.
    Yesterday we learned that Jerry Taylor, who is the Mayor of 
Escalante City, Utah, was on the East Coast with his wife, and 
lucky for us he was able to delay a flight back home and make a 
detour down here so he could offer the perspective of a local 
community on the impact of monuments. Mayor Taylor is 
intimately familiar with this subject since his city is 
surrounded by part of the Grand Staircase-Escalante Monument 
that was designated in 2000.
    Now, unfortunately, this is my fault as well, Mr. Taylor 
was not here in time to allow his testimony to be written and 
given to the Minority. He will be on the second panel, but to 
do so it would only be at the acquiescence of the Minority, 
realizing that such would be a violation of our Committee Rules 
as well as procedure. So, I am going to let the Minority think 
about how they wish to deal with Mayor Taylor.
    If Mayor Taylor is here, if we don't decide to allow the 
testimony which, once again, as I said, violates our concept of 
our Committee Rules, I would ask that his testimony be put in 
written form and submitted later into the record, which would 
be fine with me. So, I will let you think about that one and 
how you wish to preserve it. It is totally within your 
prerogative to do that, and I also apologize for putting you in 
this position because I should have been farther ahead than I 
was. It is my fault.
    Mr. Grijalva. Well, on that very important note that it is 
your fault, I have no objection and would be glad to hear the 
Mayor's testimony.
    Mr. Bishop. That is very kind of you, Mr. Grijalva.
    At this point I also ask unanimous consent that any Member 
of the Subcommittee or Full Committee wishing to participate in 
today's hearing be allowed to join us at the dais, including 
those Members testifying on their own bills. Without objection, 
so ordered.
    Once again, I realize that all of you are very busy 
individuals who will be here on our first panel. Again, once 
your testimony is over, if you need to go to other commitments, 
I understand that. However, if you would like to stay and join 
with us, we would welcome you here. If indeed you think there 
is something more important than I am, go ahead and try to do 
it. See if I care.

        STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Today, we will hear testimony on a number of 
bills to reform the Antiquities Act, a process that was used to 
create national monuments. Established in 1906, the Antiquities 
Act authorizes the President to proclaim at will national 
monuments on Federal lands. This is indeed a legislative 
function that has been transferred to the Executive Branch 
which ought to provide us with philosophical problems in the 
first place.
    It was created to protect historical landmarks or 
prehistoric structures or objects of scientific interest. 
However, the Act has been used to designate enormous tracts of 
land well beyond what the Act says as the smallest area 
compatible with the proper care and management of the objects 
to be protected. Indeed, Antiquities have three goals. It was 
to protect something that was specific, of specific interest; a 
specific interest that, number two, was endangered status; and 
number three, in the smallest area possible.
    Since its inception in 1906, Presidents have proclaimed a 
total of 128 monuments and while some have received absolutely 
little or absolutely no opposition, some have been very 
contentious, like the creation of the Grand Staircase-Escalante 
Monument in the State of Utah, as well as monuments that have 
been designated in other western states.
    Like other designations before and after, local leaders and 
congressional delegations were misled and the entire secretive, 
non-transparent process led to litigation and a litany of other 
problems. The Antiquities Act has been abused by Presidents, 
unfortunately, of both parties. But it is those of us in the 
West who suffer the brunt of these practices where the timing 
and the large scope of many designations, like Grand Staircase-
Escalante, have resulted in unnecessary hardships for local 
communities who depend upon access and use of the lands and 
their resources.
    In Escalante we will hear, thanks to Representative 
Grijalva's acquiesce, from the Mayor today who will talk about 
the particular hardships that have been put on his community, 
and one of those areas where there is a large reserve of off-
limit coal. It is unique. Secretary Udall at one time pointed 
to this area and claimed it to be America's economic future. 
And even though that future still exists out there, because of 
the lack of the ability to get those resources and, because of 
the monument, thousands of Utah school kids have been harmed.
    If you look at the 15 states in this nation who have the 
hardest time to fund their education system, the slowest growth 
in their education system, you will find out 13 of those 15 are 
public land states found in the West, found in the West where 
potential is denied them. That kind of potential is never 
actually included in any of the estimates or discussions of 
what could have been, and especially the harm it does to the 
education community in western states.
    The Antiquities Act has been successfully curbed twice. 
Congress included requirements for congressional consent for 
any future creation or enlargement of national monuments in 
Wyoming in 1943. Similarly, controversial designations in 
Alaska in 1978 spurred legislation requiring congressional 
approval for withdrawals in Alaska that would be greater than 
5,000 miles. It is appropriate that this legislative 
responsibility be actually returned to the Legislature, and 
would solve once and for all the issue of Presidents adding or 
taking from any area that is a monument at will.
    Last year, contrary to the claims of increased 
transparency, a document from the Interior Department revealed 
the Obama Administration had been planning to designate 14 new 
national monuments using the Antiquities Act. The proposal 
would have locked up millions of acres of public land in the 
West. If you were to add the States of Connecticut, Delaware, 
Rhode Island and New Jersey together, you have 11 million acres 
of land. This designation was to have 13 to 14 million acres of 
land locked up as new monuments and even more if you included 
private sector land that would be in this process.
    Following the models of Wyoming and Alaska, the bills that 
we will examine today have the goal of avoiding this problem 
and making sure that Congress is indeed involved in the 
concept. What was most frustrating for all of us is, even 
though these discussions within the Interior Department were 
simply brainstorming, the concept of the brainstorming was how 
to avoid Congress, how to work around Congress in making these 
types of designations.
    We need to ensure that the interests and livelihoods of all 
residents and stakeholders are considered and protected. Land 
use designations such as monuments and wilderness should be an 
initiative at the local level, not out of pressure from 
Washington or from special interest groups, and definitely not 
done ever again unilaterally.
    While I appreciate the Administration's willingness to 
abandon the terrible wildlands proposal, and their commitments 
to allow the consideration and coordination with local levels 
for those in the future who may be impacted, I have to say that 
my predecessors have received similar commitments from other 
administrations in the past, and yet national monuments were 
thrust upon them anyway without any input from either Congress 
or from the local areas, and that is the nicest way of putting 
it.
    We should never allow the Administration to try and avoid 
Congress, and actually never allow them to use a legislative 
function to avoid Congress in the first place. We are in the 
midst of a recession. It is nice for those who push for a 
wilderness agenda if they would also look that whatever we do 
does not compete with creation of jobs or domestic 
interference. That would be counterproductive. Managing our 
national assets in the future will have to be done by doing 
more with less, and we must begin by managing our Federal lands 
and natural resources for the benefit of the entire public.
    Wilderness is attainable, but it is also to be considered 
with other factors in the use of the land in mind. We cannot 
afford to do one at the expense of the other, and absent the 
reforms outlined today, monument designation may be constrained 
in size, solely limited to contiguous lands that are already 
owned by the Federal Government. They should be limited to the 
sites that clearly contain historic landmarks or historic and 
prehistoric structures or other objects of historic or 
scientific interest. Monument designation should not be used as 
a backdoor maneuver to lock up lands for general purposes that 
deny public access for recreation or job creation. Private 
property and inholdings should be excluded from designation. 
Designation should be limited to the areas that face the 
clearly articulated and imminent threats, and the simplistic 
and generalized notion that any particular commercial use is a 
threat is neither correct nor adequate justification for 
preemptive action.
    Now once more, importantly, it is significant that 
legislative functions should reside with the Legislature, not 
the Executive Branch.
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today we will hear testimony on a number or bills to reform the 
Antiquities Act, or the process used to create national monuments. 
Established in 1906, the Antiquities Act authorizes the President to 
proclaim national monuments on federal lands and regulate the care and 
study of our nation's antiquities. While it was created to quickly 
reserve and protect historic landmarks, historic and prehistoric 
structures, or other objects of historic or scientific interest, the 
Act has been used to designate tracks of land well beyond, as the Act 
states, ``the smallest area compatible with the proper care and 
management of the objects to be protected.''
    Since its inception in 1906, Presidents have proclaimed a total of 
128 monuments. While some have received little to no opposition, some 
have been much more contentious, like the creation of Grand Staircase-
Escalante National Monument in the State of Utah. Like other 
designations before it, this led to litigation and a litany of other 
problems.
    The Antiquities Act has been abused by Presidents of both parties 
but it is in the West where the timing and large scope of many 
designations like the Grand Staircase-Escalante have resulted in 
unnecessary hardship to local communities dependent upon access and use 
of the land and resources. In Escalante, as we will hear from the mayor 
today, this created particular hardship and put one of the nation's 
largest coal reserves off limits.
    While no court challenges have succeeded in undoing a presidential 
designation, Presidential authority under the Antiquities Act has 
successfully been curbed twice. Following the unpopular 1943 
proclamation of Jackson Hole National Monument, legislation 
incorporating Jackson Hole into Grand Teton National Park included a 
requirement for Congressional consent for any future creation or 
enlargement of National Monuments in Wyoming. Similarly, controversial 
designations in Alaska in 1978 spurred legislation requiring 
congressional approval for withdrawals in Alaska greater than 5,000 
acres.
    Last year, contrary to the claims of increased transparency, an 
internal document from the Interior Department revealed that the Obama 
Administration may be planning to designate as many as 14 new National 
Monuments under the Antiquities Act. The proposed designations would 
lock-up millions of acres of public lands in the West, without 
Congressional approval, and restrict access for energy production, 
recreation, and other job-creating economic activities for numerous 
rural communities throughout the West. Following the models of Wyoming 
and Alaska, the bills that we will examine at today's hearing would 
prevent any unilateral Administrative action and require either state 
approval or authorization by Congress prior to a national monument 
designation.
    We need to ensure that the interests and livelihoods of all 
residents and stakeholders are considered and protected. Land use 
designations such as national monuments and wilderness should be 
initiated at the local level, not out of pressure from Washington and 
definitely not unilaterally.
    While I appreciate the administration's willingness to abandon 
their terrible Wild Lands proposal and additional commitments to allow 
for the consideration and coordination at the local level by those who 
are impacted most, my predecessor received similar commitments from the 
Clinton administration and yet the Grand Staircase-Escalante National 
Monument was thrust upon us anyway.
    America is in the midst of a recession with elevated unemployment, 
yet the Obama Administration continues to push a ``wilderness agenda'' 
that competes with our national priorities of job creation and domestic 
energy independence. This is counter-productive.
    The Republican Majority in Congress understands that we are at a 
critical juncture when it comes to managing our nation's assets and the 
current state of our economy mandates that we do more with less. It is 
imperative that we begin to manage our federal lands and natural 
resources for a maximum return on conservation, economic and public 
benefit. Improved management of our federal lands and resources will 
create much-needed jobs, amplify conservation efforts and make America 
more self-reliant and insulated from global market fluctuations of 
energy and critical minerals.
    Wilderness is attainable but it also has to be considered with 
other factors and uses of the land in mind. We cannot afford to do one 
at the expense of the other. Absent the reforms outlined today, 
monument designations must be constrained in size and solely limited to 
contiguous lands that are already owned by the federal government. They 
should be limited to the sites that clearly contain ``historic 
landmarks, historic and prehistoric structures, and other objects of 
historic or scientific interest.'' Monument designations should not be 
used as a backdoor maneuver to lockup lands for general purposes that 
deny public access for recreation and job-creation. Private property 
and inholdings should be excluded from designations. Designations 
should also be limited to areas that face clearly-articulated, imminent 
threats. The simplistic, generalized notion that any potential 
commercial use is a threat is neither correct nor adequate 
justification for peremptory action.
                                 ______
                                 
    Mr. Bishop. I look forward to hearing from our witnesses 
today. I would now recognize the Ranking Member of the 
Subcommittee for his opening statement, and then we will 
recognize the Ranking Member of the Full Committee for his 
opening statement. Mr. Grijalva.

 STATEMENT OF HON. RAUL M. GRIJALVA, A REPRESENTATIVE FROM THE 
                        STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman.
    In many of the debates we have in this Committee I believe 
that my Republican colleagues are on the wrong side of the 
issue. For example, I believe that when it comes to wilderness, 
and I believe when it comes to the issue of protecting lands 
near our national borders, then my colleagues are on the wrong 
side of the issue. And when it comes to the designations of 
national monuments under the Antiquities Act, I believe my 
Republican colleagues are on the wrong side of the issue. 
However, I also believe they are on the wrong side of history.
    The proponents of the legislation to undermine the 
Antiquities Act, to prohibit the President from acting quickly 
when necessary are on the wrong side of history in two ways.
    First, they fail to appreciate the enormously valuable and 
terribly fragile historic resources the Act was designed to 
protect. The Pueblo ruins at Chaco Canyon, the ruins at the 
Mission at Tumacacori, the petroglyphs at Agua Fria, the 
African Burial Grounds in New York City, and hundreds of other 
sites protected as national monuments by the Presidents under 
the Antiquities Act are significant chapters in the history of 
this nation, and these chapters might well have been diminished 
or even lost had the legislation before us been law in the 
years past.
    Those who support destructive amendments to the Antiquities 
Act either fail to realize the value of the resources the Act 
has preserved or the seriousness of the threats posed to the 
resources or both. Even worse, critics of the Act may believe 
that there are no new historic sites to discover or no fragile 
chapters in the American story in danger of disappearing 
forever.
    I can assure my colleagues that the work already done 
pursuant to the Antiquities Act has been invaluable and the 
work left to be done is just as significant. Those proposing to 
amend the Antiquities Act are on the wrong side of history in a 
broader sense as well. History has already affirmed the wisdom 
of previous national monument designations and history will 
judge new attempts to weaken the Act very harshly. More than 30 
national monuments designated by former Presidents under the 
Act, some of which were controversial at the time, have been 
reaffirmed and elevated by later congressional action. Olympic, 
Zion, Acadia, Bryce, Carlsbad Caverns and Grand Canyon are 
among the areas protected as national monuments before they 
were national parks. The verdict of history supporting this 
decision is emphatic and those who oppose them have been found 
guilty of a lack of vision.
    As the American people marvel at the stunning culture and 
historic artifacts protected in some future national monument, 
those proposing to weaken the Antiquities Act to date could 
suffer a similar judgment.
    We will hear claims that national monuments mean expansion 
of Federal land ownership or that they harm private property 
rights or that they harm local communities. None of those 
allegations are true. This is not a debate about a Federal land 
grab. This is a debate about whether we want to lose critical 
cultural and natural resources to unlimited drilling, unending 
road building, and unrestricted off-road vehicle use. This is a 
debate about whether we value our past enough to pass it on to 
the children of the future. This is a debate about what kind of 
country we want and what we want it to look like 100 years from 
now. This is a debate in which those seeking to undermine the 
Antiquities Act are on the wrong side of the issue, the wrong 
side of the American people, and the wrong side of history. 
History makes us who we are and what we will continue to be.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Grijalva follows:]

       Statement of The Honorable Raul Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    In many of the debates we have in this committee, I believe my 
Republican colleagues are on the wrong side of the issue. For example, 
I believe they are on the wrong side of the issue when it comes to 
wilderness and I believe they are on the wrong side of the issue when 
it comes to protecting lands near the border.
    And when it comes to designation of national monuments under the 
Antiquities Act, I believe my Republican colleagues are on the wrong 
side of the issue--however, I also believe they are on the wrong side 
of history.
    The proponents of legislation to undermine the Antiquities Act--to 
prohibit the President from acting quickly when necessary--are on the 
wrong side of history in two ways. First, they fail to appreciate the 
enormously valuable and terribly fragile historic resources the Act was 
designed to protect.
    The pueblo ruins at Chaco Canyon, the ruins of the mission at 
Tumacacori, the petroglyphs at Agua Fria, the African Burial Grounds in 
New York City and hundreds of other sites protected as national 
monuments by Presidents under the Antiquities Act are significant 
chapters in the story of this nation. These chapters might well have 
been diminished or even lost had the legislation before us today been 
in law in years past.
    Those who support destructive amendments to the Antiquities Act 
either fail to realize the value of the resources the Act has preserved 
or the seriousness of the threats posed to those resources, or both.
    Even worse, critics of the Act may believe that there are no new 
historic sites to discover or no fragile chapters in the American story 
in danger of disappearing forever. I can assure my colleagues that the 
work already done pursuant to the Antiquities Act has been invaluable 
and the work left to be done is just as significant.
    Those proposing to amend the Antiquities Act are on the wrong side 
of history in a broader sense, as well. History has already affirmed 
the wisdom of previous national monument designations and history will 
judge new attempts to weaken the Act harshly.
    More than 30 national monuments designated by former Presidents 
under the Act--some of which were controversial at the time--have been 
reaffirmed and elevated by later Congressional action.
    Olympic, Zion, Acadia, Bryce, Carlsbad Caverns, and the Grand 
Canyon are among the areas protected as national monuments before they 
were national parks. The verdict of history supporting these decisions 
is emphatic and those who opposed them have been found guilty of a lack 
of vision.
    As the American people marvel at the stunning cultural and historic 
artifacts protected in some future national monument, those proposing 
to weaken the Antiquities Act today could suffer similar judgment.
    We will hear claims that national monuments mean expansion of 
federal land ownership, or that they harm private property rights or 
that they harm local communities. None of those allegations are true.
    This is not a debate about a federal land grab. This is a debate 
about whether we want to lose critical natural and cultural resources 
to unlimited drilling, unending road building, and unrestricted off-
road vehicle use. This is a debate about whether we value our past 
enough to pass it on to the children of the future. This is a debate 
about what kind of country we want and what we want it to look like 100 
years from now.
    This is a debate in which those seeking to undermine the 
Antiquities Act are on the wrong side of the issue, the wrong side of 
the American people, and the wrong side of the history that makes us 
who we are. I yield back.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Grijalva. Mr. Markey.

 STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE FROM THE 
                 COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much, and I would 
just like to begin by saying what a great honor it is to have 
Senator Hatch here today. You may not be a national monument, 
but you are a national treasure, and we very much appreciate 
your being over here.
    Mr. Chairman, our great nation has been shaped by our many 
significant political movements. The civil rights movement 
sought justice and equality. The environmental movement sought 
breathable air and drinkable water for our children. These are 
proud chapters in our nation's history. It is my hope that 
today's hearing marks the death of a political movement, 
however. It is time finally for the ``stop the monuments 
movement'' to end.
    The stop the monuments movement was organized around the 
belief that a plan conceived by Teddy Roosevelt in 1906 poses a 
serious threat to the United States of America and must be 
stopped. To supporters of this movement, the Antiquities Act 
poses such a dire threat that six different bills in this 
Congress alone are needed to defend America against the danger 
posed by national monuments. It is time for this to stop.
    In fact, the stop the monuments movement should have been 
declared dead last February. That is when an amendment to H.R. 
1 to prohibit new national monument designations failed on the 
House Floor. Two hundred and thirteen Members of this House, 
including 34 Republicans, voted against that amendment. A 
majority of this House is now on record rejecting the stop the 
monuments movement, and it is time for this Committee to reject 
this movement as well.
    It would not be a great loss. The stop the monuments 
movement was never particularly popular. Fifteen Presidents, 
both Republicans and Democrats, rejected the movement and used 
the Antiquities Act to designate more than 100 national 
monuments. George W. Bush used the Act six times, including 
designation of the largest national monument ever.
    Prior Congresses rejected the call to stop national 
monuments as well. For many years the Interior appropriations 
bill has protected national monuments by prohibiting oil and 
gas development within their boundaries. Congress has also 
acted more than 30 times to reaffirm monuments designated under 
the Antiquities Act by upgrading them to national parks or 
other units of the National Park System, and, in addition, to 
American Presidents in previous Congresses, the American people 
flatly rejected the stop the monuments movement.
    Many of the monuments designated under the Antiquities Act 
are among the most beloved and most visited destinations in the 
country. In addition to its lack of support, it is time for the 
stop the monuments movement to end because the two claims on 
which the movement is based are plainly false.
    The first claim is that national monument designations are 
land grabs that lock up private property. In reality the 
Antiquities Act authorizes the President to designate national 
monuments on Federal land only. The Act allows the President to 
act quickly to protect resources already owned by the Federal 
Government. These designations do not and cannot take private 
property.
    The second basic tenet on stop the monuments movement is 
that monument designations harm local economies. This claim is 
false as well. As Dr. Rasker will testify today, each of the 
large national monument designations examined by Headwaters 
Economics was followed by increases in population, employment, 
and household income the surrounding community.
    In the end, the stop the monuments movement failed to 
attract significant interest. It was based on false allegations 
and anecdotal information squarely at odds with economic 
reality. The stop the monument movement has clearly run its 
course.
    If public opinion, economic data, Presidential support and 
a majority vote of the full House of Representatives are 
relevant, this would be the last meeting of the stop the 
monuments movement in history, and if this is indeed the very 
place the monument movement meets its end, perhaps some future 
President will see fit to designate this hearing room as a 
national monument. That is how important that effort will be.
    I thank you, Mr. Chairman, and I yield back the balance of 
my time.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Mr. Chairman, our great nation has been shaped by many significant 
political movements. The civil rights movement sought justice and 
equality; the environmental movement sought breathable air and 
drinkable water for our children. These are proud chapters in our 
nation's history.
    It is my hope that today's hearing marks the death of a political 
movement, however.
    It is time, finally, for the Stop the Monuments Movement to end.
    The Stop the Monuments Movement was organized around the belief 
that a plan conceived by Teddy Roosevelt in 1906 poses a serious threat 
to the United States of America and must be stopped.
    To supporters of this movement, the Antiquities Act poses such a 
dire threat, that six different bills in this Congress alone are needed 
to defend America against the danger posed by national monuments.
    It is time for this to stop. In fact, the Stop the Monuments 
Movement should have been declared dead last February. That is when an 
amendment to H.R. 1 to prohibit new national monument designations 
failed on the House floor.
    213 Members of this House, including 34 Republicans, voted against 
that amendment. A majority of this House is now on record rejecting the 
Stop the Monuments Movement--it is time for this Committee to reject 
this movement as well.
    It would not be a great loss--the Stop the Monuments Movement was 
never particularly popular. Fifteen Presidents, both Republicans and 
Democrats, rejected the movement and used the Antiquities Act to 
designate more than 100 national monuments. George W. Bush used the Act 
6 times, including designation of the largest national monument ever.
    Prior Congresses rejected the call to stop national monuments, as 
well. For many years, the Interior Appropriations bill has protected 
national monuments by prohibiting oil and gas development within their 
boundaries.
    Congress has also acted more than 30 times to reaffirm monuments 
designated under the Antiquities Act by upgrading them to national 
parks or other units of the National Park System.
    And in addition to American Presidents, and previous Congresses, 
the American people have also flatly rejected the Stop the Monuments 
Movement. Many of the monuments designated under the Antiquities Act 
are among the most-beloved and most-visited destinations in the 
country.
    In addition to its lack of support, it is time for the Stop the 
Monuments Movement to end because the two claims on which the movement 
is based are plainly false.
    The first claim is that national monument designations are ``land 
grabs'' that ``lock up'' private property.
    In reality, the Antiquities Act authorizes the President to 
designate national monuments on federal land only. The Act allows the 
President to act quickly to protect resources already owned by the 
federal government. These designations do not, and cannot take private 
property.
    The second basic tenet of the Stop the Monuments Movement is that 
monument designations harm local economies. This claim is false as 
well.
    As Dr. Rasker will testify today, each of the large national 
monument designations examined by Headwaters Economics was followed by 
increases in population, employment and household income in the 
surrounding community.
    In the end, the Stop the Monuments Movement failed to attract 
significant interest. It was based on false allegations and anecdotal 
information squarely at odds with economic reality. The Stop the 
Monument Movement has clearly run its course.
    If public opinion, economic data, Presidential support and a 
majority vote of the full House of Representatives are relevant, this 
will be the last meeting of the Stop the Monuments Movement in history.
    And if this is indeed the very place the Movement meets its end, 
perhaps some future President will see fit to designate this hearing 
room as a national monument.
                                 ______
                                 
    Mr. Bishop. Thank the Ranking Member for joining us. I 
appreciate very much his being here.
    We will now turn to our first panel in what will be a 
series of meetings on this particular topic. I appreciate them 
all being here. Thank you for, first of all, your attendance 
with us. Your written testimony will appear in the full hearing 
record, and so you can keep your opening statements hopefully 
to five minutes. The microphones are not automatic so please 
make sure you press the button before you are beginning to 
speak.
    I first want to recognize the senior senator from my home 
State of Utah, Mr. Hatch, to speak on H.R. 2147, the Utah Land 
Sovereignty Act. Once again, we appreciate you coming over to 
the true side of Capitol Hill, Senator Hatch.

STATEMENT OF HON. ORRIN HATCH, A U.S. SENATOR FROM THE STATE OF 
                              UTAH

    Senator Hatch. Well, thank you, Mr. Chairman.
    Mr. Bishop. And I don't think you are turned on.
    Senator Hatch. Yes, it is on. I am just not close enough, I 
guess.
    Thank you, Mr. Chairman, Ranking Member Grijalva, and of 
course, Chairman Markey, I appreciate you as well, and thank 
you for your kind remarks.
    I appreciate the opportunity to discuss the need for the 
Utah Land Sovereignty Act. It is an honor to be here. I 
especially appreciate Chairman Bishop's continued efforts to 
stand up for me.
    Mr. Bishop. If I can interrupt. We have a hard time hearing 
you. Can you put that right in your mouth.
    Senator Hatch. I will put that right up. How is that? Is 
that better?
    Mr. Bishop. That is a whole lot better. Thank you.
    Senator Hatch. OK. I had better put my glasses on here.
    It is an honor to recognize you, Mr. Chairman, and your 
continued efforts to stand up for the needs of Utah here in the 
House of Representatives. It is a pleasure to serve with you.
    Like most western states, Utah is owned mostly by the 
Federal Government. This creates a unique set of challenges for 
Utahns. A lot of decisions that affect our daily lives are made 
by faceless bureaucrats who are thousands of miles away. Many 
of them believe that it is their duty to ``protect'' the land 
from any future development.
    When the Antiquities Act passed Congress in 1906, it was 
intended to give the President the authority to designate small 
areas of historic or scientific interest on lands owned by the 
United States. In theory, this is a good idea. We live in a 
beautiful country and there are areas that merit protections. 
Unfortunately, this authority is too easily abused.
    In September of 1996, President Clinton used the 
Antiquities Act to surprise Utah by establishing the 1.8 
million acre Grand Staircase-Escalante National Monument. The 
state had no warning that this was coming, and once it was done 
we had no recourse. With a stroke of the pen 500 high paying 
jobs in a rural Utah county disappeared, and actually thousands 
of others when you look at the natural resources that were 
there, that are there.
    We thought we had seen the worst that could be done with 
this Act to score political points at the expense of public 
land states. Last year when the so-called treasured landscape 
memo was leaked to this committee we realized that it could be 
much worse. We found out that this President is not only 
willing to abuse the Antiquities Act, but that his Interior 
Department was getting ready to advise him on where to do it. 
Two of the areas they had identified for possible monument 
designation happened to be in Utah. That is why it is essential 
that the bills we are discussing today pass and the Congress be 
given the ultimate say on which areas will become national 
monuments.
    Now don't get me wrong, Utah is a beautiful place, and 
there are areas that should be protected, but there are also 
vast areas that do not merit protection. Many of these areas 
also have vast stores of recoverable energy in the form of oil, 
natural gas and oil shell. The Utah delegation is working hard 
with local leaders as well as interested parties from both 
sides of the debate to identify those lands that should be 
preserved and those that should be open for development. What 
we don't need is the Administration making those decisions for 
us.
    My bill, S. 1182, with the House companion H.R. 2147, will 
guarantee that Utah does not have any more surprise monument 
designations like we have had back in 1996.
    Ultimately the goal of this bill is to protect jobs. Some 
people will say that we, Republicans, want to throw away our 
nation's most beautiful places for a few jobs and a few 
dollars. That is certainly not the case. We just want to be 
able to use the process that is in place without worrying that 
our work will be overruled by a President desperate to score 
political points.
    Now, this is a very important issue to rural Utahns. We 
need to protect our state from anymore surprises like the Grand 
Staircase-Escalante National Monument.
    I would be happy to answer any of your questions. Thank you 
for giving us this opportunity to testify.
    [The prepared statement of Mr. Hatch follows:]

        Statement of The Honorable Orrin Hatch, a U.S. Senator 
                         from the State of Utah

    Thank you Chairman Bishop and Ranking Member Grijalva for the 
opportunity to discuss the need for the ``Utah Lands Sovereignty Act.'' 
It's an honor to be here. I especially appreciate Chairman Bishop's 
continued efforts to stand up for the needs of Utah here in the House 
of Representatives. Rob, it is a pleasure to serve with you.
    Like most Western states, Utah is owned mostly by the federal 
government. This creates a unique set of challenges for Utahns. A lot 
of decisions that affect our daily lives are made by faceless 
bureaucrats who are thousands of miles away.
    Many of them believe that it is their duty to ``protect'' the land 
from any future development.
    When the Antiquities Act passed Congress in 1906 it was intended to 
give the President the authority to designate small areas of historic 
or scientific interest on lands owned by the United States. In theory, 
this is a good idea. We live in a beautiful country and there are areas 
that merit protections. Unfortunately, this authority is too easily 
abused.
    In September of 1996, President Clinton used the Antiquities Act to 
surprise Utah by establishing the 1.8 million acre Grand Staircase-
Escalante National Monument. The State had no warning that this was 
coming, and once it was done we had no recourse.
    With the stroke of the pen, 500 high-paying jobs in a rural Utah 
county disappeared.
    We thought we had seen the worst that could be done with this Act 
to score political points at the expense of public-lands states. Last 
year when the so-called, Treasured Landscapes memo was leaked to this 
committee we realized that it could be much worse.
    We found out that this President is not only willing to abuse the 
Antiquities Act, but that his Interior Department was getting ready to 
advise him on where to do it. Two of the areas they had identified for 
possible monument designation are in Utah.
    That is why it is essential that the bills we are discussing today 
pass and the Congress be given the ultimate say on which areas will 
become national monuments.
    Now don't get me wrong. Utah is a beautiful place and there are 
areas that should be protected. But there are also vast areas that do 
not merit protection. Many of these areas also have vast stores of 
recoverable energy in the form of oil, natural gas and oil shale. The 
Utah delegation is working hard with local leaders as well as 
interested parties from both sides of the debate to identify those 
lands that should be preserved and those that should be opened for 
development. What we don't need is the administration making those 
decisions for us.
    My bill, S. 1182, with the house companion H.R. 2147 will guarantee 
that Utah does not have any more surprise monument designations like we 
had back in 1996.
    Ultimately the goal of this bill is to protect jobs. Some people 
will say we republicans want to throw away our nation's most beautiful 
places for a few jobs and a few dollars. That is not the case. We just 
want to be able to use the process that is in place without worrying 
that our work will be overruled by a President desperate to score 
political points.
    This is a very important issue to rural Utahns. We need to protect 
our state from any more surprises like the Grand Staircase-Escalante 
National Monument.
    I will be happy to answer any of your questions.
                                 ______
                                 
    Mr. Bishop. Senator, thank you, and I know in your busy 
schedule, whenever you need to leave you are excused. If you 
would like to stay, we would be more than happy to have you 
here.
    Senator Hatch. Well, if you will forgive me, I think maybe 
I would get back over to the other side, but thank you for your 
kindness, and I appreciate this committee very much.
    Mr. Bishop. Thank you. We wish you well, and you will still 
note it is still brighter on this side than it is over on that 
side.
    Senator Hatch. We always knew that over there.
    Mr. Bishop. All right. We next turn to our other colleagues 
who have bills both in front of us and on the panel as well. 
The first one I would like to ask is a former member of this 
Committee, the Representative At Large from the great State of 
Montana, Mr. Denny Rehberg, to talk about H.R. 845, the Montana 
Land Sovereignty Act. Congressman Rehberg.

  STATEMENT OF HON. DENNIS REHBERG, A REPRESENTATIVE FROM THE 
                        STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman. Before he leaves I 
would like to thank Senator Hatch. This is the second time I 
have appeared next to him. The most recent was on the issue of 
wolves, and we were successful in getting that through the 
Congress and signed by the President. I hope we are as 
successful on this piece of legislation as well. I might point 
out I did have to show him how to turn on the microphone so I 
have done my duty as a House Member teaching the Senate today.
    Chairman Bishop, Members of the Subcommittee, thank you for 
inviting me to testify here on behalf of my legislation, the 
Montana Land Sovereignty Act. I am reminded of a Greek myth 
about a guy named Damocles who was forced to sit in the King's 
chair beneath a huge sword. The sword hangs from its handle 
above his head by a single hair of a horse's tail. Damocles is 
constantly aware of the sword's presence. He is miserable.
    For Montana, the Antiquities Act is something like the 
Sword of Damocles. Like the myth, we must cope with the 
constant knowledge that one day we could wake up to find that 
with the stroke of a pen the President declared the backyard a 
national monument. For us, it is no myth. In the eleventh hour 
of the outgoing Clinton Administration the Antiquities Act was 
used, some say abused, to create the Upper Missouri Breaks 
National Monument despite strong opposition across my home 
State of Montana.
    The Montana Land Sovereignty Act isn't about stopping new 
monuments, it is simply about making sure that the American 
public has a voice in the process. We were left out in 2001. 
Ten years later history is repeating itself. By now you have 
heard of the not-for-release Department of the Interior memo 
that recommends millions of acres of new national monuments, 
including 2.5 million acres in Montana. The emails show 
detailed discussions that went into brainstorming for the plan. 
The Great Falls Tribune read the documents and concluded that 
the rumors started at the top levels of the Interior Department 
agencies, and all of this happened in secret.
    The only reason we found out was because the documents were 
leaked. We got lucky this time. We had time to weigh in and the 
opposition to the plan is clear at the town hall meetings I 
hosted, on the bill boys' bumper stickers, and road signs 
across the state. But for all of that opposition the President 
could still act on those secret plans at any time, and that is 
just wrong.
    When we go back and look at the original House and Senate 
reports from 1906, the debate was about archeology and 
protecting Native American ruins from looters. When it passed, 
this bill's strongest support came from Archeological Institute 
of America, the American Anthropological Association, and the 
Smithsonian Institution. The Antiquities Act was never meant to 
circumvent Congress and designate huge parcels of land as 
national monuments. In fact, this question was directly 
considered during the debate.
    On June 5, 1906, Mr. Stevens of Texas asked on the House 
Floor if the Antiquities Act could be used to tie up large 
parcels of land. The bill sponsor assures him ``Certainly not. 
The object is entirely different. It is to preserve these old 
objects of special interest and the Indian remains in the 
Pueblos in the Southwest.'' I have the testimony, I would like 
to have it entered into the record if I might, without 
objection.
    Mr. Bishop. Without objection.
    [NOTE: The 17-page Stevens' statement submitted for the 
record has been retained in the Committee's official files.]
    Mr. Rehberg. Mr. Chairman, Members of the Subcommittee, I 
didn't introduce the Montana Land Sovereignty Act to undermine 
the intent of the Antiquities Act. On the contrary, my 
legislation restores this valuable law to its original 
intention; that is, history, on the preservation of American 
antiquities, but the Montana Land Sovereignty Act is also about 
protecting the American people from the unchecked, 
unaccountable expansion of the Antiquities Act power.
    Consider this. In one of the leaked memos the BLM 
recommends using the Antiquities Act to designate monuments, 
and I quote, ``should the legislative process not prove 
fruitful.'' In other words, if the people say no, unelected 
bureaucrats will do it anyway.
    But in the State of Wyoming and Alaska, Presidential 
designations of large national monuments must be ratified by 
Congress. For those states BLM lays out a different policy 
recommendation. I quote, ``The BLM also recommends that the 
Administration begin a dialogue with Congress to encourage the 
conservation of these areas.'' That is the approach the 
Montanans deserve, dialogue instead of a top-down Federal 
mandate. Under current law Congress must approve any national 
monument designation in Wyoming and in parts of Alaska.
    My commonsense bill simply establishes the same requirement 
of congressional approval for new national monuments in 
Montana. With your support in this committee we can restore the 
Antiquities Act to its intended purpose. More importantly, we 
can restore the power to govern in this country to the people. 
That is where it belongs.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rehberg follows:]

      Statement of The Honorable Denny Rehberg, a Representative 
            in Congress from the State of Montana (At Large)

    Chairman Bishop, members of the subcommittee, thank you for 
inviting me to testify here on behalf of my legislation--the Montana 
Land Sovereignty Act.
    You know, I'm reminded of a Greek myth about a guy named Damocles 
who's forced to sit on the king's chair beneath a huge sword. The sword 
hangs from its handle above his head by a single hair of a horse's 
tail. Damocles is constantly aware of the sword's presence. He's 
miserable.
    For Montanans, the Antiquities Act is something like the sword of 
Damocles. Like the myth, we must cope with a constant knowledge that, 
one day, we could wake up to find that with the stroke of a pen, the 
President declared their back yard a National Monument.
    For us, it's no myth. In the eleventh hour of the outgoing Clinton 
Administration, the Antiquities Act was used--some say abused--to 
create the Upper Missouri River Breaks National Monument, despite 
strong opposition across the state.
    The Montana Land Sovereignty Act isn't about stopping new National 
Monuments. It's simply about making sure that the American public has a 
voice in the process.
    We were left out in 2001. Ten years later, history is repeating 
itself.
    By now, you've heard about the ``NOT FOR RELEASE'' Department of 
the Interior memo that recommends millions of acres for new National 
Monuments, including 2.5 million acres in Montana.
    While the Department of Interior has downplayed the memo, the 
Associated Press wrote that ``The e-mails show detailed discussions 
that went into brainstorming'' for the plan. The Great Falls Tribune 
read the documents and concluded that, ``the rumors started at the top 
levels of Interior Department agencies.''
    And all of this happened in secret. The only reason we found out 
was because the documents were leaked. We got lucky this time. We had 
time to weigh in, and the opposition to the plan is clear at the town 
hall meetings I hosted and on billboards, bumper stickers and road 
signs across the state. But for all that opposition, the President 
could still act on those secret plans at any time. That's just wrong.
    When we go back and look at the original House and Senate Reports 
from 1906, the debate was about archeology and protecting Native 
American ruins from looters. When it passed, this bill's strongest 
support came from the Archaeological Institute of America, the American 
Anthropological Association and the Smithsonian Institution.
    The Antiquities Act was never meant to circumvent Congress and 
designate huge parcels of land as National Monuments. In fact, this 
question was directly considered during the debate. On June 5, 1906, 
Mr. Stephens of Texas asked on the House floor if the Antiquities Act 
could be used to tie up large parcels of land, the bills' sponsor 
assures him: ``Certainly not. The object is entirely different. It is 
to preserve these old objects of special interest and the Indian 
remains in the pueblos in the Southwest.'' Mr. Chairman, members of the 
subcommittee. I didn't introduce the Montana Land Sovereignty Act to 
undermine the intent of the Antiquities Act. On the contrary, my 
legislation restores this valuable law to its original intention: the 
preservation of American antiquities.
    But the Montana Land Sovereignty Act is also about protecting the 
American people from the unchecked, unaccountable expansion of 
Antiquities Act power.
    Consider this: In one of the leaked memos, the BLM recommends using 
the Antiquities Act to designate Monuments, ``should the legislative 
process not prove fruitful.'' In other words, if the people say no, 
unelected bureaucrats will do it anyway.
    But in the States of Wyoming and Alaska, Presidential designations 
of large National Monuments must be ratified by Congress. For those 
states, BLM lays out a different policy recommendation: ``The BLM also 
recommends that the Administration begin a dialogue with Congress to 
encourage the conservation of these areas.''
    That's the approach Montanans deserve: dialogue instead of top-down 
federal mandates. Under current law, Congress must approve any National 
Monument designation in Wyoming and in parts of Alaska. My common-sense 
bill simply establishes the same requirement of congressional approval 
for new National Monuments in Montana.
    With your support in this committee, we can restore the Antiquities 
Act to its intended purpose. More importantly, we can restore the power 
to govern in this country to the people. That's where it belongs.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman Rehberg. And the same 
offer applies to you. If you need to go do something else, you 
are excused. If you would like to stay here with us, we would 
be more than happy.
    Mr. Rehberg. Thank you.
    Mr. Bishop. And I am not insulted you are leaving.
    Next turn to Representative Herger from California who is 
here, represents the 2nd District in California. He is here to 
talk about his bill, H.R. 817 that amends the Antiquities Act 
of 1906. Congressman Herger.

STATEMENT OF HON. WALLY HERGER, A REPRESENTATIVE FROM THE STATE 
                         OF CALIFORNIA

    Mr. Herger. Thank you, Chairman Bishop, for holding this 
hearing and inviting me to participate.
    In the rural northern California congressional district I 
represent, the Federal Government owns a significant amount of 
the land, with it reaching as high as 75 percent in one of my 
counties. Local communities collect no taxes from these lands, 
money that could go to schools and roads. The Federal 
Government is also unable to manage it properly. Now the Obama 
Administration is talking about increasing the number of 
Presidentially designated national monuments. This would be 
extremely detrimental to local communities across our nation 
and is why I have introduced H.R. 817, which would require 
Congress's approval for any national monument designation by 
the President.
    In 2000, President Clinton designated over 52,000 acres of 
Federal lands as the Cascade-Siskiyou National Monument which 
is adjacent to my northern California congressional district, 
and is located in the State of Oregon. Some groups have 
advocated the areas of my congressional district to be 
included, but such plans have, fortunately, thus far been 
thwarted by local communities loudly voicing their concerns. 
Such a designation in northern California could be devastating 
to the local economy, further limiting forest management and 
livestock grazing.
    Unfortunately, the Obama Administration currently has the 
authority to reconsider at anytime and expand the designation. 
The livelihoods of people in northern California and across the 
Nation should not be at the whim of the President. Instead, 
national monument designations should be subject to the 
approval of Congress where the interests and viewpoints of 
affected Americans are understood and championed by their 
elected representatives.
    As I referenced, a Bureau of Land Management document has 
revealed that the Obama Administration intends to unilaterally 
lock up more than 13 million acres of Federal land from 
multiple use access. This is very troubling and would be 
devastating. In a time of high unemployment, it would lock even 
more American jobs away. The BLM memorandum provides further 
evidence that Congress must be part of the national monument 
designation process.
    Since the 1980s, management of our forests and Federal 
lands has stopped almost entirely. The jobs that depend on 
grazing, timber harvesting, and mineral extraction, and 
recreation have slowly been eliminated by government 
regulations. This mismanagement of our resources does not 
affect the economy alone. It has led to unhealthy forests that 
become catastrophic wild fire that burn hotter longer and cover 
more land. National monument designations significantly harm 
rural forest communities.
    In the face of severe economic challenges, we need to 
reform crippling government policies and regulations so that 
local communities can utilize their natural resources and 
prosper. These lands belong to the people, and local needs 
should drive their management, not a one-size-fits-all decree 
from Washington. If we utilize more of our natural resources, 
we can foster job growth, generate revenue for the treasury, 
and help prevent catastrophic forest fires.
    I look forward to working with the Committee to pass 
commonsense reforms to the Antiquities Act of 1906 which would 
be a significant step toward limiting government overreach. 
Thank you.
    [The prepared statement of Mr. Herger follows:]

   Statement submitted for the record by The Honorable Wally Herger, 
       a Representative in Congress from the State of California

    Thank you Chairman Bishop for holding this hearing and inviting me 
to participate. In the Northern California Congressional District I 
represent, the federal government owns a significant amount of the 
land, with it reaching as high as 75% in one county. Local communities 
collect no taxes from these lands, money that could go to schools and 
roads. The federal government is also unable to manage it properly. Now 
the Obama Administration is talking about increasing the number of 
presidentially-designated national monuments. This would be detrimental 
to local communities across our nation, and is why I have introduced 
H.R. 817, which would require Congress' approval for any National 
Monument designations by the President.
    In 2000, President Clinton designated over 52,000 acres of federal 
lands as the Cascade-Siskiyou National Monument, which is adjacent to 
my Northern California Congressional district and is located in the 
state of Oregon. Some groups have advocated for areas of my 
congressional district to be included, but such plans have fortunately 
thus far been thwarted by local communities loudly voicing their 
concerns. Such a designation in Northern California could be 
devastating to the local economy, further limiting forest management 
and livestock grazing. Unfortunately, the Obama administration 
currently has the authority to reconsider at any time and expand the 
designation. The livelihoods of people in Northern California and 
across the Nation should not be at the whim of the President. Instead, 
national monument designations should be subject to the approval of 
Congress where the interests and viewpoints of affected Americans are 
understood and championed by their elected representatives.
    As I referenced, a Bureau of Land Management document has revealed 
that the Obama Administration intends to unilaterally lock up more than 
thirteen million acres of federal land from multiple-use access. This 
is very troubling and would be devastating. In a time of high 
unemployment, it would lock even more American jobs away. The BLM 
memorandum provides further evidence that Congress must be a part of 
the National Monument designation process.
    Since the 1980s, management of our forests and federal lands has 
stopped almost entirely. The jobs that depend on grazing, timber 
harvesting, mineral extraction, and recreation have slowly been 
eliminated by government regulations. This mismanagement of our 
resources does not affect the economy alone. It has led to unhealthy 
forests that become catastrophic wildfires that burn hotter, longer, 
and cover more land. National monument designations significantly harm 
rural forest communities.
    In the face of severe economic challenges, we need to reform 
crippling government policies and regulations so that local communities 
can utilize their natural resources and prosper. These lands belong to 
the people, and local needs should drive their management, not a one-
size-fits-all decree from Washington. If we utilize more of our natural 
resources, we can foster job growth, generate revenue for the treasury, 
and help prevent catastrophic forest fires. I look forward to working 
with the committee to pass common-sense reforms to the Antiquities Act 
of 1906, which would be a significant step towards limiting government 
overreach.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Herger. I appreciate your 
testimony, appreciate you being here. Once again, I realize 
what your schedule is, but if you would like to stay with us we 
would be more than happy. I am trying to find someone who wants 
to stay with me, but if you need to go, we recognize that.
    Mr. Herger. I think Dr. Foxx is going to stay for awhile.
    Mr. Bishop. That is kind of you for volunteering her to do 
that. Thank you, Congressman Herger. I appreciate it.
    Mr. Herger. Thank you.
    Mr. Bishop. Next we would like to hear from Representative 
Foxx who represents the 5th District in North Carolina, and is 
the chief sponsor of H.R. 302, the Preserve Land Freedom for 
Americans Act of 2011. Ms. Foxx.

  STATEMENT OF HON. VIRGINIA FOXX, A REPRESENTATIVE FROM THE 
                    STATE OF NORTH CAROLINA

    Ms. Foxx. Thank you very much, Mr. Chairman, and Ranking 
Member Grijalva, and all the Members of the Committee, friends 
of mine. I thank you for the opportunity to come and talk about 
an issue deserving of attention from all of our colleagues, and 
I want to say that I appreciate having the opportunity and 
heard the comments of those who have spoken before me. I want 
to lend my support to their comments, and I am intrigued by how 
we are all talking about this issue from slightly different 
angles.
    The Antiquities Act enacted during the presidency of 
Theodore Roosevelt allows the President to proclaim areas of 
Federal lands that he determines contain ``historic landmarks, 
historic and prehistoric structure and other objects of 
historic or scientific interest'' as a national monument, and 
to ``reserve'' parcels of land within the monument. Presidents 
have used the Antiquities Act to create national monuments more 
than 120 times over the past century.
    When President Carter attempted to establish 15 new 
national monuments in Alaska and expand two more containing 56 
million acres of Federal land, Congress enacted the Alaska 
National Interest Lands Conservation Act, overturning most of 
the designations, altering the status of some, and confirming a 
few and included a congressional veto on future land 
withdrawals in the state.
    President Clinton unilaterally deemed 19 new national 
monuments and expanded three more, reserving 5.9 million acres 
of land. It is important to note that all but one of these 
proclamations came in the last year of his presidency, and 11 
occurred in the twilight period between the 2000 election and 
the end of the term.
    It has become public that the Obama Administration is 
attempting yet another land grab that would add another 13 
million acres to Federal real estate land holdings.
    Considering the size of the Federal Government's existing 
real estate portfolio, there is no need to continue 
unilaterally acquiring new lands without any regard to the 
rights of states or the economy. The Federal Government owns a 
third of the land in western states, including 84.5 percent of 
Nevada, 69.1 percent of Alaska, and 57.5 percent of Utah. Four 
Federal agencies--the Bureau of Land Management, the U.S. 
Forest Service, the U.S. Fish and Wildlife Service and the 
National Park Service--manage most of the Federal real estate 
portfolio. These agencies collectively own 630 million acres, 
which is the size of ten European countries, including France, 
Spain, Germany, Poland, Italy, the United Kingdom, Austria, 
Switzerland, The Netherlands, and Belgium combined. Given the 
size of the portfolio, the cost of managing Federal lands is in 
the billions. Simply adding more lands will increase cost to 
already strained budgets.
    The Antiquities Act impinges on the rights of the states 
with regard to their own land. With the stroke of a pen in 
secrecy the President can ignore pleas from state officials and 
their citizens in order to claim more land on behalf of the 
Federal Government. With the current challenging fiscal 
conditions we can all agree now that more than ever the states 
are in need of resources to sustain their own budgets and 
fiscal needs. When the Federal Government takes lands from the 
states it also take away a potential source of revenue and 
economic growth.
    H.R. 302, the Preserve Land Freedom for Americans Act will 
give the states a voice and a say in this process by requiring 
state approval for national monument designations by the 
Federal Government. State governments are prepared and best 
qualified to make these decisions. They do not need Washington 
taking lands and revenues away from them. If states agree there 
is a need for the Federal Government to preserve and protect 
lands, they will not hesitate to seek assistance.
    As the Chairman said in his opening remarks, this issue is 
about the principle of separation of powers and the rules of 
the President and the Congress.
    Mr. Chairman, thank you for the opportunity to visit the 
Committee and talk about H.R. 302. I will be glad to answer any 
question that you or Members of the Committee may have, but I 
will appreciate the invitation also to leave.
    [The prepared statement of Ms. Foxx follows:]

Statement of The Honorable Virginia Foxx, a Representative in Congress 
                    from the State of North Carolina

    Mr. Chairman, Ranking Member Grijalva, thank you for the 
opportunity to come here and talk about an issue deserving of attention 
from all of our colleagues.
    The Antiquities Act, enacted during the presidency of Theodore 
Roosevelt, allows the President to proclaim areas of federal lands he 
determines contain ``historic landmarks, historic and prehistoric 
structures, and other objects of historic or scientific interest'' as a 
national monument, and to ``reserve'' parcels of land within the 
monument. Presidents have used the Antiquities Act to create national 
monuments more than 120 times over the past century.
    When President Carter attempted to establish fifteen new national 
monuments in Alaska and expanded two more, containing fifty-six million 
acres of federal land, Congress enacted the Alaska National Interest 
Lands Conservation Act, overturning most of the designations, altering 
the status of some and confirming a few, and included a congressional 
veto on future land withdrawals in the state.
    President Clinton unilaterally deemed nineteen new national 
monuments and expanded three more, reserving 5.9 million acres of land. 
All but one of these proclamations came in the last year of his 
presidency, and eleven occurred in the twilight period between the 2000 
election and the end of the term.
    It has become public that the Obama administration is attempting 
yet another land grab that would add over 13 million acres to federal 
real estate land holdings.
    Considering the size of the federal government's existing real 
estate portfolio, there is no need to continue unilaterally acquiring 
new lands without any regard to states right's or economies. The 
federal government owns over a third of the land in western states 
including 84.5 percent of Nevada, 69.1 percent of Alaska and 57.5 
percent of Utah.
    Four federal agencies--the Bureau of Land Management, the U.S. 
Forest Service, the U.S. Fish and Wildlife Service and the National 
Park Service--manage most of the federal real estate portfolio. These 
agencies collectively own 630 million acres which isthe size of 10 
European countries--includingFrance, Spain, Germany, Poland, Italy, the 
United Kingdom, Austria, Switzerland, the Netherlands and Belgium--
combined.
    Given the size of the portfolio, the cost of managing federal lands 
is in the billions. Simply adding more lands will increase costs to 
already strained budgets. The Antiquities Act fails to protect state's 
rights with regard their own land. With the stroke of a pen and in 
secrecy, the President can ignore pleas from state officials and their 
citizens in order to claim more land on behalf of the federal 
government.
    With the current challenging fiscal conditions, we all can agree 
that now, more than ever the states are in need of resources to sustain 
their own budgets and fiscal needs. When the federal government takes 
lands from the states, it also takes away a potential source of revenue 
and economic growth.
    H.R. 302, the Preserve Land Freedom for Americans Act, seeks to 
give the states a voice and power by requiring state approval for 
national monument designations by the federal government. State 
governments are prepared and best qualified to make these decisions. 
They do not need Washington taking lands and revenue away from them. If 
states agree that there is a need for the federal government to 
preserve and protect lands, they will not hesitate to seek assistance.
    States rights are key to the strength of our nation.
    Mr. Chairman, thank you for the opportunity to visit the committee 
and talk about H.R. 302. I'll be glad to answer any question that you 
or members of the committee may have.
                                 ______
                                 
    Mr. Bishop. Even though Wally volunteered you? No, Ms. 
Foxx, we appreciate your testimony, appreciate you being here, 
as well as the bill. Once again, if you have other commitments, 
you have time for committee action, we will recommend it, but 
you are welcome to stay for as long as that may be, which I 
take is less than a minute, right?
    OK, Representative Labrador from Idaho also has a bill, 
H.R. 846. He represents the 1st District of Idaho. It is the 
Idaho Land Sovereignty Act. Representative, you are recognized 
for five minutes.

  STATEMENT OF HON. RAUL LABRADOR, A REPRESENTATIVE FROM THE 
                         STATE OF IDAHO

    Mr. Labrador. Thank you, Mr. Chairman, Ranking Member 
Grijalva. I commend you for convening this important hearing 
today regarding my bill, H.R. 846, the Idaho Land Sovereignty 
Act.
    There are two things that Presidents do in the last days in 
office. One is to declare new monuments, and number two is 
pardon convicted criminals, both leave the public with a bad 
taste in their mouth. Just as designation of wilderness areas 
is a congressional prerogative, I believe the designation of 
national monuments should also be subject to congressional 
oversight.
    My legislation would prohibit any Presidential 
Administration from imposing new monument designations in the 
State of Idaho. Clearly the Obama Administration has given us 
numerous reasons to believe they need to be reined in with 
their job killing regulations. However, these concerns are not 
only limited to the current Administration.
    In January of 2001, the outgoing Clinton Administration 
shocked western states with its outrageous land grabs that were 
done via executive order. We in the West remember this very 
well and we are not going to allow anything like it to happen 
again. More recently, Interior Secretary Salazar and his agency 
on December 23, 2010, reminded us that Federal agencies still 
believe they can circumvent Congress to lock up public lands 
without specific congressional action.
    In my State of Idaho, approximately 67 percent of all lands 
are owned by the Federal Government. Of that, 4,522,717 acres 
are wilderness, making Idaho the state with the most acres of 
designated wilderness area. For that reason it is critically 
important that Idahoans continue to access our Federal lands 
for the multiple uses they were designed. It is unacceptable to 
make lands off limit through any process that is not an act of 
Congress.
    The Bureau of Land Management asserts that livestock 
grazing is a major activity on public lands in Idaho. Actually, 
800,000 AUMs of livestock forage are authorized annually in 
Idaho under BLM management. Livestock grazing is outlined in 
the Federal Land Policy and Management Act and the Taylor 
Grazing Act as being authorized multiple uses. The economic 
losses to ranchers who have traditionally been good stewards of 
BLM grazing leases would be immeasurable.
    Tourism and motorized recreation are important industries 
in Idaho. If new monument designations are established, the 
potential for road closures and limited OHV access has the 
potential to be detrimental to the local economies.
    I urge my colleagues to protect our authority and the power 
of congressional oversight. If any administration were to 
impose additional restrictions to the public lands in Idaho 
through a designation of new monument areas the detriment to my 
state could be vast. Administrative land grabs prohibit 
stakeholder input at the detriment to our rural economies.
    Mr. Chairman, I don't oppose public lands. I simply oppose 
efforts by an out-of-touch Administration to forcefully lock up 
public lands with no congressional oversight. Thank you.
    [The prepared statement of Mr. Labrador follows:]

Statement of The Honorable Raul Labrador, a Representative in Congress 
                  from the State of Idaho, on H.R. 846

    Mr. Chairman, Ranking Member Grijalva, I commend you for convening 
this important hearing today regarding my bill H.R. 846, the Idaho Land 
Sovereignty Act.
    There are two things that Presidents do their last days in office: 
declare new monuments and pardon convicted criminals. Both leave the 
public with a bad taste in their mouth. Just as designation of 
wilderness areas is a Congressional prerogative, I believe the 
designation of national monuments should also be subject to 
Congressional oversight.
    My legislation would prohibit any presidential administration from 
imposing new monument designations in the state of Idaho. Clearly the 
Obama Administration has given us numerous reasons to believe they need 
to be reined in with their job killing regulations. However, these 
concerns are not only limited to the current administration.
    In January of 2001 the outgoing Clinton Administration shocked 
western states with its outrageous land grabs that were done via 
executive order. We in the west remember this very well and we are not 
going to allow anything like it to happen again. More recently Interior 
Secretary Salazar and his agency, on December 23, 2010, reminded us 
that federal agencies still believe they can circumvent Congress to 
lock up public lands without specific Congressional action.
    In my state of Idaho, approximately 67% of all lands are owned by 
the federal government. Of that, 4,522,717 acres are wilderness, making 
Idaho the state with the most acres of designated wilderness areas. For 
that reason, it is critically important that Idahoans continue to 
access our federal lands for the multiple uses they were designed. It 
is unacceptable to make lands off-limits through any process that is 
not an act of Congress.
    The Bureau of Land Management asserts that livestock grazing is a 
major activity on public lands in Idaho. Actually, 800,000 AUMs (Animal 
Unit Months) of livestock forage are authorized annually in Idaho under 
BLM management. Livestock grazing is outlined in the Federal Land 
Policy and Management Act and the Taylor Grazing Act as being among 
authorized multiple-uses. The economic losses to Ranchers who have 
traditionally been good stewards of BLM grazing leases would be 
immeasurable.
    Tourism and motorized recreation are important industries in Idaho. 
If new monument designations are established, the potential for road 
closures and limited OHV access has the potential to be detrimental to 
the local economies.
    I urge my colleagues to protect our authority and the power of 
Congressional oversight. If any administration were to impose 
additional restrictions to the public lands in Idaho through the 
designation of new monument areas, the detriment to my state could be 
vast. Administrative land grabs prohibit stakeholder input at the 
detriment to our rural economies.
    Mr. Chairman, I don't oppose public lands. I simply oppose efforts 
by an out-of-touch administration to forcibly lock up public lands with 
no Congressional oversight.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate that. As we begin, I 
hope you will stay.
    Mr. Labrador. I will stay just for you.
    Mr. Bishop. I am proud of you. I am proud of you.
    As we begin this round of questioning, I would like to 
yield my time to Mr. Gosar of Arizona. Mr. Gosar has introduced 
a similar bill dealing with Arizona but it is not on our agenda 
today. I think it is 2877, the Arizona Land Sovereignty Act, 
but I would like to yield my five minutes to Mr. Gosar to talk 
about his bill or any of the others.
    Dr. Gosar. Thank you, Chairman Bishop, and Ranking Member 
Grijalva, for allowing me to take part in today's hearing.
    A fundamental aspect of good government is the rule of law. 
The rule of law includes due process. Currently, under the 
existing law, a President can unilaterally--without any public 
input, without one congressional hearing, and without any 
hallmarks of transparency--remove millions of acres of public 
land from public access and public use. This law needs to be 
changed, but until it is changed, the western states are at 
highest risks for Federal abuse exemptions.
    The national monument designation process, as any public 
land designation, is of particular interest to my constituents 
in Arizona's 1st congressional district, which is comprised of 
over 26 million acres of Federally administered and Native 
American lands, which is nearly 70 percent of the total land. 
Due to the prevalence of this public land and the way these 
lands are administered by the Federal Government has a direct 
impact on almost every person residing in my district. These 
communities depend on a multitude of use of public lands for 
their livelihoods.
    As I traveled throughout my district during this August 
recess, my constituents expressed concerns about access to our 
public lands at nearly every corner of my 58,000 square mile 
district. These concerns range from the ability to develop 
domestic sources of energy, timber salvage and harvesting, 
grazing, hunting, fishing, and family recreation. Too often we 
find that some Federal land designations are causing endless 
bureaucratic delays, litigation and restrictions that could 
completely lock up much of the large and needed store of wealth 
and recreation opportunities our vast system of public lands 
can provide.
    In a district like mine dominated by Federally 
administrated lands, these burdens disproportionately stifle 
economic productivity, leading to some of the highest 
unemployment rates in the country, and in some cases 
threatening the ability of affected communities to provide 
public education and other basic services to the residents.
    There is a reason the ability to set aside Federal land 
generally rested with Congress. These Federal lands 
designations has significant direct impacts on our 
constituents. Sometimes these access restrictive designations 
are absolutely necessary for the preservation of our natural 
and historic treasures. Unfortunately, in other instances these 
designations are counterproductive and cause more harm than 
good.
    Congressional authority to establish these land 
designations is an integral part of the transparent and public 
process that will ensure a designation is not only appropriate 
but accepted by our constituents. This is why I believe it is 
critical this Congress reforms the national monument 
designation process. While it is extremely important to protect 
our country's natural and historical treasures, no President, 
regardless of what party he belongs to, should have the power 
to unilaterally declare a land designation that has some of the 
most stringent restrictions on public access.
    When Congress abdicated its duty to designation national 
monuments and gave this power to the President via the 
Antiquities Act of 1906, Congress never intended the President 
to use the authority the way it has been utilized. At the time 
the law was enacted over concerns about protecting mostly 
prehistoric Indian ruins and artifacts, collectively termed 
antiquities, on Federal lands in the West. By definition, the 
sites were to be very small, the smallest area compatible with 
preserving the antiquity.
    Unfortunately, since given this power many Presidents, 
Republican and Democrat, have abused it. Today there are 71 
national monuments located in 26 states covering some 136 
million acres. Some of these sites span over 1 million acres, 
and 140,000 square miles of what was formerly known as the 
Northwestern Hawaiian Island Marine National Monument is the 
largest protected area per claim.
    Without a doubt many of the 71 existing national monuments 
are extremely valuable natural and historic treasures. Nine 
national monuments with major contributions to our tourism and 
the economy are located in Arizona's 1st congressional 
district. Many of them draw visitors to high camp or recreate 
around the monuments. My district's economy has a significant 
services component tied to tourist sites, like the Grand Canyon 
National Park and some of the national monuments. I appreciate 
the need for protection of sites. However, the public deserves 
the opportunity to have their voices heard on any land 
designation that may restrict our right to access.
    Mine and Congressman Flake's legislation, H.R. 2877, and 
many of the other bills being discussed today will ensure that 
the designation of national monuments has an open and 
transparent process. By ensuring no further extension or 
establishment of national monuments in Arizona can be done 
without the authorization of Congress, we would ensure the 
public gets to be a part of the land designations that affect 
them.
    The opposition to my bill will likely paint my initiatives 
as an attack on the Administration or playing politics with our 
public lands. Regardless of what political party controls the 
government, these initiatives need to make sense. In some cases 
proximity to a national monument or like site increases the 
value of land or makes it more appealing to the consumer. In 
many other cases the exact opposite is the case. Shouldn't our 
constituents have the ability to express concerns or support 
depending on the specific proposal?
    In last year's Interior Department internal document that 
revealed the Obama Administration's plans to designate a new 
national monument under the Antiquities Act, the Obama 
Administration even states that, ``The acceptance of 
preservation status is best achieved when the public has an 
opportunity to participate in a land use planning or 
legislative process.'' I introduced that legislation for that 
very reason. The people should be part of the land designation 
decisions. When they are, there is public buy-in. Isn't that 
why we call these lands public lands?
    I thank you very much for giving me the opportunity and 
look forward to working for you. Thank you.
    Mr. Bishop. Thank you, Representative.
    We still actually have two Members here who have bills 
before us. Before we go to the second panel, are there any 
questions that anyone would like to ask for either 
Representative Labrador or myself? If not----
    Mr. Grijalva. Mr. Chairman.
    Mr. Bishop. I am sorry.
    Mr. Grijalva. My question is for the four that left so I 
don't have any questions for these two gentlemen. Is that OK?
    Mr. Bishop. That is OK. Anybody else have a question? Then 
if not, we will turn to the second panel, and ask them if they 
would kindly take their seats. I believe I have--help me out 
here--Mr. Ray Rasker who is the Executive Director of the 
Headwaters Economics, and Mayor Taylor who is Jerry Taylor, who 
is the Mayor of Escalante City, Utah. If you would take your 
places at the table, I would be very appreciative.
    As we did with the other panel as well, your oral remarks 
we would ask that you limit them to five minutes. You see in 
front of you the timer that goes down there. Obviously green 
means you are on. Once again, you have to activate your own 
microphone to make sure it is on. When the yellow light comes 
on you have less than a minute. I lied, you have a minute to 
go, and the red light we would like you to cease if possible.
    We will start with Mr. Rasker and then Mayor Taylor. Mr. 
Rasker.

              STATEMENT OF MR. RAY RASKER, Ph.D., 
            EXECUTIVE DIRECTOR, HEADWATERS ECONOMICS

    Dr. Rasker. Chairman Bishop, Ranking Member Grijalva, 
Members of the Subcommittee, and guests. It is an honor to be 
here today to discuss the research that my organization, 
Headwaters Economics, recently conducted concerning the 
economic importance of national monuments in the West local 
communities.
    Resource economics across the West has been the focus of my 
research for over 25 years. I am an economist. I have a Ph.D. 
from College Forestry at Oregon State University, a Master's of 
Agriculture from the Colorado State University, and a Bachelor 
of Science in wildlife biology from the University of 
Washington. I am currently an adjunct faculty at Montana State 
University. I am also the Executive Director of Headwaters 
Economics. We are an independent research group that works to 
improve community development to land management decisions 
across the West.
    Headwaters Economics has recently conducted extensive 
research for the Bureau of Land Management, and the U.S. Forest 
Service as well as some state governments like Montana. One of 
the research products we developed was for the BLM and for the 
Forest Service called the Economic Profile System. This 
software allows agencies in the public to produce detailed 
socio-economic profiles using accurate, credible Federal data. 
The tool was instrumental in the National Monuments Report I am 
here to discuss today that is available for free on our 
website.
    Our research, we looked at the economic performance of 
communities next to 17 national monuments in the West. We found 
that in every instance the local economies near the national 
monuments we studied grew following the creation of a new 
national monument. In every instance there was growth in 
employment, real personal income, and real per capita income 
after the designation of a national monument. In no case did we 
find that the creation of a national monument studied led to an 
economic downturn.
    To conduct this research we analyzed economies surrounding 
17 national monuments in the 11 western states. We looked at 
monuments of 10,000 acres or larger that were created after 
1982.
    For the research, we used data from the U.S. Department of 
Commerce, and we looked at key economic indicators, changes in 
population, employment, personal income and per capita income. 
These are standard measures of economic growth and well being. 
The Federal statistics are free and available to anybody. They 
are reliable and they allow for comparisons across counties and 
state boundaries. All of our report findings are on our 
website, HeadwaterEconomics.org.
    As I mentioned, the analysis found that without exception 
all of the economies of the counties surrounding the 17 
national monuments that we studied grew following the creation 
of a national monument. While this doesn't demonstrate a cause 
and effect relationship, the finding shows that national 
monuments are consistently correlated with economic growth in 
adjacent local communities, and in no case did the creation of 
a national monument lead to or coincide with a downturn in the 
economies of adjacent communities.
    Several examples might be helpful. First, employment. From 
the time of creation of the Canyons of the Ancients National 
Monument in Colorado in 2000 through 2008 employment on 
Montezuma County adjacent to the national monument grew by 10 
percent, creating jobs and double the rate of population growth 
during that time.
    Another example, the Grand Staircase-Escalante National 
Monument in Utah and the two counties, Garfield and Kane 
neighboring the national monument, employment grew by 38 
percent since the monument's creation in 1986 through 2008. 
Again jobs grew faster than population with employment 
increasing more than four times the population growth during 
that time according to the U.S. Department of Commerce.
    Another important measure is real per capita income because 
it is a widely accepted yardstick of economic prosperity. 
Looking at the national monuments the real per capita income 
increased for the communities adjacent to the monument in every 
single case in the years following the monuments establishment. 
For example, after the designation the real per capita income 
grew by 15 percent in Montezuma County next to Canyon of the 
Ancients National Monument, and by 30 percent for the Grand 
Staircase area.
    A little bit more on the Grand Staircase since designation 
real personal income has grown by 40 percent, jobs by 38 
percent, per capita income by 30 percent.
    In Pima County, Arizona, next to the Ironwood National 
Monument, real per capita income grew by 10 percent following 
the monuments creation in 2000 through 2008, and for the area 
surrounding the Carrizo Plain National Monument per capita 
income grew by 9 percent from the monument's proclamation in 
2001 through 2008. And for communities near the Cascade-
Siskiyou National Monument real per capita income grew by 8 
percent from the monument's 2000 creation through 2008.
    Protecting lands like national monuments is entirely 
consistent with what the growing body of literature is telling 
us about. People, business decisions, locations, entrepreneurs 
choose areas largely for a high quality of life. As communities 
across the West emerge from the recent recession, we think 
national monuments can play an important role. Again to 
reiterate, we found no evidence that designating these 
monuments prevented continued economic growth, instead trends 
in key economic indicators such as employment, personal income, 
per capita income either continued to grow or improved in each 
of the regions surrounding the national monuments.
    I am happy to answer any questions. Thank you.
    [The prepared statement of Mr. Rasker follows:]

    Statement of Ray Rasker, Ph.D., Executive Director, Headwaters 
Economics, on H.R. 302, H.R. 758, H.R. 817, H.R. 845, H.R. 846 and H.R. 
                                  2147

    Chairman Bishop, Ranking Member Grijalva, Members of the 
Subcommittee, and guests, it is an honor to appear before you today to 
discuss recent research that my organization, Headwaters Economics, has 
conducted concerning the economic importance of national monuments in 
the West to local communities.
    Resource economics across the American West has been a focus of my 
research for more than twenty-five years. I am an economist and my 
Ph.D. is from the College of Forestry, Oregon State University; my 
Masters of Agriculture is from Colorado State University; and my B.S. 
in Wildlife Biology is from the University of Washington. I currently 
am adjunct faculty at Montana State University.
    I am the Executive Director of Headwaters Economics, an 
independent, nonprofit research group that works to improve community 
development and land management decisions in the West.
    It is important to note that Headwaters Economics has conducted 
past and ongoing research and work for the federal government, 
including the Bureau of Land Management and the United States Forest 
Service, as well as state governments such as Montana. One of the 
research products we developed for the BLM and Forest Service--the 
Economic Profile System-Human Dimensions Toolkit--allows agencies and 
the public to produce detailed socioeconomic profiles using accurate, 
credible federal data. That tool was instrumental in the national 
monuments report that I am here to discuss today. It is available for 
free on our web site.
RESEARCH SUMMARY
    Our research investigated the economic performance of communities 
adjacent to 17 national monuments in the West. We found that in every 
instance the local economies near the national monuments we studied 
grew following the creation of the new national monuments. In all 
cases, there was growth of employment, real personal income, and real 
per capita income after designation of the national monument. In no 
case did we find that the creation of a national monument studied led 
to an economic downturn.
METHODOLOGY
    To conduct this research Headwaters Economics analyzed the 
economies surrounding the 17 national monuments in the eleven western 
continental states that are larger than 10,000 acres and were created 
in 1982 or later. (See the study area map on page five of this 
testimony.) This sample allowed us to study the performance of the 
major national monuments created during the last generation, analyzing 
key economic indicators before and after designation using reliable 
measures of economic performance. The sample also allowed us to avoid 
smaller monuments with little potential to have an impact on local 
economies. All of the report findings, along with fact sheets, more 
detailed analysis, and summary, are available on our website: http://
headwaterseconomics.org/or directly at http://headwaterseconomics.org/
land/reports/national-monuments/.
    For each national monument studied, we utilized information from 
the U.S. Department of Commerce's Bureau of Economic Analysis and its 
Regional Economic Information System. We used key economic indicators 
such as changes in population, employment, personal income, and per 
capita income. These are standard measures of economic growth and well-
being and federal statistics are the most reliable available and allow 
for comparisons across county, region, or state boundaries.
FINDINGS IN DEPTH AND EXAMPLES
    The analysis found that, without exception, all of the economies of 
the counties surrounding the 17 national monuments grew following the 
creation of new national monuments. While this does not demonstrate a 
cause-and-effect relationship, this finding shows that national 
monuments are consistently correlated with economic growth in adjacent 
local communities. In no case did the creation of a national monument 
lead to or coincide with a downturn in the economies of adjacent 
communities.
    Trends in important economic indicators--such as population, 
employment, personal income, and per-capita income growth--either 
continued or improved in each of the regions surrounding the national 
monuments studied. The analysis found no evidence that designating 
these national monuments prevented continued economic growth. In one 
case--El Malpais National Monument in New Mexico--leading indicators 
(population, employment, personal income, and per capita income) 
reversed declines that had been experienced in the years before 
designation.
    When reviewing the findings around key economic indicators, several 
examples may be helpful. First, let's turn to employment. The Canyons 
of the Ancients National Monument in Colorado, created by presidential 
proclamation in 2000, offers a good example. Reviewing the period from 
2000-2008, employment in Montezuma County grew by ten percent, creating 
jobs at double the five percent rate of population growth during the 
same time period. (See the tables on pages six, seven, and eight for 
the examples concerning employment, population, and real per capita 
income listed here and below.)
    Another example is the Grand Staircase-Escalante National Monument 
in Utah. In the two counties, Garfield and Kane, neighboring the 
national monument, employment grew by 38 percent since the monument's 
creation in 1996 through 2008. Again, jobs grew faster than population, 
with employment increasing more than four times faster than the eight 
percent population growth during that time period.
    Another important economic measure that Headwaters Economics 
analyzed is per capita income, a widely accepted measure of prosperity. 
Looking at all the national monuments we studied, the data show that 
per capita income increased for the studied counties adjacent to every 
national monument in the years following establishment.
    For example, looking at the two national monuments I already 
mentioned, after designation real per capita income grew by 15 percent 
for Montezuma County adjacent to the Canyons of the Ancients National 
Monument; and by 30 percent for the Grand Staircase-Escalante area.
    In addition, in Pima County, Arizona adjacent to the Ironwood 
Forest National Monument, real per capita income grew by ten percent 
from the Monument's creation in 2000 through 2008. Looking at two other 
national monuments, for the area surrounding the Carrizo Plain National 
Monument, real per capita income grew by nine percent from the 
Monument's proclamation in 2001 through 2008; and for communities near 
the Cascade-Siskiyou National Monument, real per capita income grew by 
eight percent from the Monument's 2000 creation through 2008.
NATIONAL MONUMENTS AND PROSPERITY IN THE WEST
    The results of this study correspond to related research that shows 
how protecting public lands can assist western communities working to 
promote a more robust economic future.
    The western economy has changed significantly in recent decades. 
Services industries that employ a wide range of people--from doctors 
and engineers to teachers and accountants--have driven economic growth 
and now make up the large majority of jobs, even in rural areas.
    Protected lands such as national monuments are important because 
many people and their businesses base their location decisions on 
quality of life, such as access to the outdoors for hunting, fishing, 
sightseeing or other recreation opportunities. This quality of life--
both recreation and natural amenities--also attracts retirement 
dollars. Non-labor income, such as dividends, interest, rent, and 
transfer payments, is the fastest source of personal income in the West 
and now accounts for one-third of all personal income in the region and 
is likely to grow in the coming decades.
    A sampling of research includes:
        <bullet>  Outdoor recreation is important to western economies. 
        In New Mexico, for example, the Outdoor Industry Foundation 
        reports that active outdoor recreation contributes $3.8 billion 
        annually to the state's economy, supporting 43,000 jobs. 
        (Outdoor Industry Foundation. 2006. The Active Outdoor 
        Recreation Economy: A $730 Billion Annual Contribution to the 
        U.S. Economy.)
        <bullet>  Services jobs are increasingly mobile, and many 
        entrepreneurs locate their businesses in areas with a high 
        quality of life. Conserving lands, while also creating a new 
        visibility for them through protective designations, helps 
        safeguard and highlight the amenities that attract people and 
        business. (Lorah, P. R. Southwick, et al. 2003. Environmental 
        Protection, Population Change, and Economic Development in the 
        Rural Western United States. Population and Environment 24(3): 
        255-272; McGranahan, D. A. 1999. Natural Amenities Drive Rural 
        Population Change. E. R. S. U.S. Department of Agriculture. 
        Washington, D.C.)
        <bullet>  For many seniors and soon-to-be retirees, protected 
        public lands and recreation provide important aspects of a high 
        quality of life. Non-labor sources of income already represent 
        more than a third of all personal income in the West--and will 
        grow as the Baby Boomer generation retires. (Frey, W.H. 2006. 
        America's Regional Demographics in the '00 Decade: The Role of 
        Seniors, Boomers and New Minorities. The Brookings Institution, 
        Washington, D.C.)
        <bullet>  The counties in the West with protected public lands, 
        like national monuments, have been more successful at 
        attracting fast-growing economic sectors and as a result grow 
        more quickly, on average, than counties without protected 
        public lands. (Rasker, R. 2006. An exploration into the 
        economic impact of industrial development versus conservation 
        on western public lands. Society & Natural Resources, 19(3), 
        191-207.)
        <bullet>  Protected natural amenities--such as pristine scenery 
        and wildlife--help sustain property values and attract new 
        investment. (Deller, S. C., T.-H. Tsai, et al. 2001. The Role 
        of Amenities and Quality of Life in Rural Economic Growth. 
        American Journal of Agricultural Economics 83(2): 352-365.)
CONCLUSION
    The review of the 17 national monuments by Headwaters Economics 
found that all of the regional economies studied experienced growth 
following a monument's designation.
    As communities across the West emerge from the recent recession, 
nearby national monuments can play several important economic roles: 
helping a region to diversify economically while increasing quality of 
life and recreational opportunities that assist communities to become 
more attractive for new residents, businesses, and investment.
    The study found no evidence that designating these national 
monuments prevented continued economic growth. Instead, trends in key 
economic indicators such as employment, personal income, and per-capita 
income either continued to grow or improved in each of the regions 
surrounding the national monuments.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Bishop. Thank you. Thank you for your testimony.
    Mayor Taylor, once again I make the apologies for me 
messing up your appearance here today but we are happy that you 
are able to join us. You are recognized for five minutes.

             STATEMENT OF MR. JERRY TAYLOR, MAYOR, 
                      ESCALANTE CITY, UTAH

    Mr. Taylor. Thank you, Mr. Chairman.
    My name is Mayor Taylor, Jerry Taylor, from Escalante, 
which is at the heart of the Grand Staircase-Escalante National 
Monument. I got a call yesterday afternoon just before a flight 
back to Utah, and was asked if I would be willing to appear 
here today, and I appreciate this opportunity. I would love to 
talk to you about the Grand Staircase-Escalante National 
Monument.
    We set at the base of the Escalante-Boulder Mountain and at 
the top of the Escalante Desert, and also adjacent to the 
Kaiparowits Plateau which is rich in coal, some of the richest 
coal in the world, the highest btu, lowest sulfur. We also are 
surrounded by national forest with natural gas and oil, all of 
which at this point we are unable to use at this time because 
of the Grand Staircase-Escalante National Monument, and the 
restrictions that have been placed upon that.
    I don't know where they are getting their data from but I 
can tell you this. Escalante in 1996 had a population of 850. 
We now have a population of 750. Our schools, and believe me, 
we need the funding for rural schools. Our schools are about to 
close because of lack of students. Little Escalante was over 
100 in 1996, we are down as of the end of last year to 71 
students. I don't see where the increases are coming from. I 
know that people in Escalante struggle. I myself work four 
hours away from Escalante. I travel there once or twice a week, 
depending on the schedule. Many people, many fathers in my 
community travel to North Dakota, South Dakota, Wyoming to work 
in the oil fields, to Southern California. They are gone for 10 
days at a time. That effects my community, having the fathers 
gone.
    I don't see where the monument has brought in any jobs for 
our community. People come in. They don't buy backpacks. They 
don't buy groceries. They come in and use our water from free 
taps around our community, and then they go about hiking. With 
that brings the responsibility, sometimes they get into canyons 
and places they shouldn't be. Volunteers from my community and 
throughout the county go out and rescue these people at our own 
expense. We have volunteers for EMTs that also risk their lives 
to go out and to help these people.
    I wish I could say that it was a great economic boom for 
our community but I can't, but I do know we have lost the 
ability to mine our coal, and to drill for our oil. They don't 
let us mine the coal but they allow people to come in and take 
our dinosaurs and our artifacts from the Escalante-Garfield-
Kane region. They take those out and I ask why. Why not, if you 
are going to do something why not build us a museum, a science 
center there which would allow people to come there to look at 
the dinosaurs that they are taking from the ground near 
Escalante and the artifacts. They are locked up right now in 
the University of Utah, BYU, Utah State and other areas. These 
dinosaurs, these artifacts are important to us. If you won't 
let us mine our coal, why do you allow them to mine our 
dinosaurs and our artifacts?
    Someone said to me one time, well, we need a controlled 
environment in which to study these. We have the ability to 
build a controlled environment in Escalante. If they can do it 
in Salt Lake City or in New York City, we can do that in 
Escalante, which would be a benefit to our community.
    I am very passionate about my little community and the 700 
people that I represent. I don't have a big college degree, but 
I have a heart, and I love my community.
    When they created the monument, did they ask anybody, 
anybody from Escalante how they felt about it or what they 
could do to help? No. Instead they had to go to Arizona, they 
had to go to Arizona to announce that they were going to put a 
monument in Utah. What a shame. What a shame. We have a voice, 
we have ideas, we have concerns. I would like to know how many 
in this room have actually been to the Grand Staircase-
Escalante National Monument. If you have not, I invite you to 
come to see it, to see what we actually have there, to talk to 
the people, to communicate with the people and to ask them 
their thoughts, their feelings. We are part of America. We love 
America. We are not there to trash. We are not there to trash 
our mountains, our deserts. We are there to live, to love, and 
to survive in our community, and I thank you, Mr. Chairman.
    [The prepared statement of Mr. Taylor follows:]

  Statement of The Honorable Jerry Taylor, Mayor, Escalante City, Utah

    Thank you for allowing me to testify before your committee today. 
Yesterday, I was in New York and when I learned about your hearing 
today on bills that would reform the Atiquities Act. Luckily, I was 
able take a slight detour to Washington, DC so I can share with you the 
impact that national monument designations have on local communities, 
specifically, my community. I am intimately familiar with this subject 
since Escalante City is surrounded by part of the Grand Staircase-
Escalante National Monument that was designated in 2000.
    The establishment of the Grand Staircase-Escalante National 
Monument has had a devastating economic impact had on the economy and 
people of my city and Garfield County, Utah.
    It has come to our attention that Headwaters Economics has issued a 
report titled Grand Staircase-Escalante National Monument: A Summary of 
Economic Performance in the Surrounding Communities which indicates 
that there has been a strong, positive economic impact to Garfield and 
Kane Counties from the establishment of the Grand Staircase-Escalante 
National Monument. This is completely contrary to our own observation 
and analysis.
    The report indicates significant increases in real personal income 
and real per capita income. This is completely false with regards to 
Garfield County.
    In summary, the establishment of the GSENM has hurt the local 
economy, driven our residence to find work elsewhere, and burdened 
local government to provide uncompensated services.
        <bullet>  Real personal income DECREASED from $44,678 in 1996 
        (in chained 2009 dollars) to $38,759 in 2009, a decrease of 
        13.25%
        <bullet>  Real income per capita (in chained 2009 dollars) 
        DECREASED from $28,542.79 in 1997 to $25,651.58 in 2009, a 
        decrease of 10.13%
        <bullet>  School enrollment in Garfield County DECREASED from 
        1,219 in 2000 to 925 in 2010, a decrease of 24.11%
        <bullet>  The Escalante region of Garfield County is the most 
        heavily affected by the Monument. The town population decreased 
        from approximately 850 in 1996 to 750 in 2010. School 
        enrollment in that region of Garfield County decreased from 277 
        in 2001 to 172 in 2010, a 37.9% decrease.
    Further, the report stated that total employment had increased from 
approximately 6,000 in 1996 to over 8,000 in 2009. Given that the 
combined populations of of Garfield and Kane Counties 12,297, including 
pre-school aged children, school children, and retired persons, and the 
current unemployment rate in Garfield County is greater than 10%, the 
assertion strains the bounds of credibility.
    Based on our knowledge of Garfield County, the Headwaters Economics 
report is false and misleading.
    In addition to the declining socioeconomic condition resulting from 
the establishment of the GSENM, resident of Garfield and Kane Counties 
have experienced lost opportunities in developing natural resource 
based industries. For example:
        <bullet>  The vast Kaiparowitz coal reserves (some of the 
        highest quality coal in the world) is off limits.
        <bullet>  Natural gas and oil reserves are prohibited from 
        exploration and development.
        <bullet>  Interpretative opportunities and visitor services are 
        largely non-existent.
        <bullet>  Little has been done to improve rangeland health.
        <bullet>  A larger burden is also placed on local governments 
        to provide necessary services without appropriate compensation.
        <bullet>  Garfield County volunteers provide all the emergency 
        medical services for the Monument.
        <bullet>  Garfield County volunteers provides search and rescue 
        services for the Monument.
        <bullet>  Garfield County provides solid waste disposal 
        services for visitors.
        <bullet>  Garfield County has law enforcement jurisdiction over 
        the Monument.
        <bullet>  Garfield County provides the vast majority of road 
        maintenance which occurs in the Monument.
    Furthermore, I'd like to emphasize:
        1.  A shift to a tou`rism-based economy, especially a primitive 
        tourism-based economy, from one of natural resources extraction 
        and agriculture decreases not only wages, but also the 
        circulation of money in the county as H-2B visa workers have 
        less to spend and generally save as much as possible.
        2.  A shift to a tourism-based economy removes families, the 
        foundations of communities, as living wages are not paid to the 
        low skill work required in the tourism sector.
        3.  Local property taxation is hurt by a shift to a tourism-
        based economy as fewer workers are able to purchase homes and 
        instead must live in low-income housing. Further, local sales 
        tax revenue from workers is hurt because disposable incomes are 
        small.
        4.  Tourism places a strain on government services, with costs 
        of additional services exceeding tourist provided sales taxes 
        and transient room taxes.
        5.  Uncertainty in public lands decisions prevent private 
        sector investment. The uranium mill near Ticaboo is a prime 
        example. In recent years, the mill was assessed a value in 
        excess of $50,000,000. Due to the fact that the mill was not 
        able to open, the assessed value has decreased to less than 
        $2,000,000. This change in valuation of directly impacted all 
        resident property taxpayers as the burden of tax was shifted 
        from from Uranium One onto residents.
    If there are any questions regarding the devastating social and 
economic impacts resultant from the creation of the GSENM, we request 
that you contact Garfield County staff at 435-676-1157 or Escalante 
City elected officials at 435-826-4644.
                                 ______
                                 
    Mr. Bishop. Thank you, Mayor Taylor.
    I will go last in the round of questioning here. Mr. 
Grijalva, do you wish to go now?
    Mr. Grijalva. Thank you, Mr. Chairman.
    Dr. Rasker, just to kind of recap your findings, 
population, employment and income increased in local 
communities near large national monuments in the West after the 
monuments were designated, is that a good recap?
    Dr. Rasker. That is correct, yes.
    Mr. Grijalva. And how were the monuments in the communities 
you reviewed, I know the year cutoff, but how were they 
selected?
    Dr. Rasker. We looked at monuments that were created in 
long enough ago that we could look at economic data before 
monument creation and data after creation, so we could do a 
before and after picture, and a good date for that was 1982. We 
look at monuments of 10,000 acres in size or larger.
    Mr. Grijalva. You are saying the designation caused the 
increases?
    Dr. Rasker. No. Well, this data does not necessarily prove 
a cause and effect. What we are looking at is the relationship 
and strong correlation between growth and population, real 
personal income, real household income, and employment 
following the designation of the monument, but it doesn't 
necessarily prove cause and effect.
    Mr. Grijalva. At a minimum though the predictions or the 
claim that designations of national monuments are harmful to 
the local economies, that isn't borne out in your research?
    Dr. Rasker. Well, we are not finding any data for any of 
the 17 monuments we looked at that point to economic decline. 
There wasn't a single indicator.
    Mr. Grijalva. Last question, Doctor. Mayor Taylor raised 
some concerns regarding potentially your work. Could you 
respond more fully in terms of the comments he made relative to 
some of the findings?
    Dr. Rasker. Sure. We are very transparent where we got the 
data. It is from the U.S. Department of Commerce and we are 
using software that we developed for both the BLM and the 
Forest Service. It is available for free. We accessed this data 
off of Federal websites.
    More specifically in Garfield County where Escalante is, in 
1996, there were 2,788 jobs. By 2009, 3394. Per capita income 
in 1996 was a little over 22,000. By 2009, just a little over 
29,000, a number of indicators like that. Kane Count and the 
adjoining county added up almost 1,200 jobs since designation. 
So those statistics are available on our website at 
HeadwatersEconomics.org. Just click on national monuments, and 
there is an interactive tool that you can look at as well, and 
you can scroll across different monuments and see key 
statistics.
    Mr. Grijalva. Thank you very much, and thank you for 
joining us, Mayor Taylor. You neighboring county, I think Kane 
County, their website, I think, and the county also includes 
Grand Staircase, describes the monument as a dramatic multi-
huge landscape that is rich in natural and human history. The 
website goes on to say the monument offers an impressive array 
of educational, recreational and other multi-use opportunities 
for visitors young and old to enjoy.
    Do you share Kane County's view of the Grand Staircase 
Monument as they describe it?
    Mr. Taylor. It is a beautiful place. There is no doubt 
about that. But there are many things that could be done there, 
not just a place to visit. There is, like I said, tons of coal 
that would last the Nation for many, many years with the needs 
of power.
    Mr. Grijalva. Yes, I looked at the website, coal mining and 
Kane County's website never appears as part of the promotion.
    Mr. Taylor. That is right because you have stopped it. 
There is one mine in Alta right now that they are mining on 
private ground.
    Mr. Grijalva. That doesn't attract a lot of visitors, I 
figure. But anyway, thank you, Mayor, and I yield back.
    Mr. Bishop. Thank you. I think, Mr. McClintock, you have 
sat here longer than anyone else on my side. You are recognized 
for five minutes.
    Mr. McClintock. Well, thank you, Mr. Chairman.
    Mr. Rasker, your figures needs some means of comparison. 
They invite the question, compared to what? For example, you 
have testified that in Pima County adjacent to the Ironwood 
Forest National Monument per capita income grew by 10 percent 
from the monument's creation in 2000 through 2008, suggests 
that, hey, these are great for the economy. That comes to about 
1.25 percent annual growth per year. That sound anemic to me.
    Did you compare this to the state economic growth in the 
same period or the national economic growth? 2000 to 2008 was a 
period of very significant economic growth, and I suspect far 
higher increases in per capita income than 1.25 percent a year.
    Dr. Rasker. What we did in every case for every county we 
looked at next to all 17 of the national monuments, we compared 
them to their peers. So for example if----
    Mr. McClintock. No, no, no, that is not what I asked you. 
Did you compare it to the state economies in the same period or 
the national economies which I suspect were performing far, far 
better than the numbers you are reporting from the counties 
adjacent to these national monuments.
    Dr. Rasker. We did, yes. We look at----
    Mr. McClintock. And what was your conclusion? What was 
annual per capita income grown between 2000 to 2008 nationally?
    Dr. Rasker. I don't have that figure memorized.
    Mr. McClintock. Well, don't you think that would be 
relevant?
    Dr. Rasker. It did grow faster than the state.
    Mr. McClintock. Did it grow faster than the national 
economy?
    Dr. Rasker. I don't have the memorized. I could look it up 
for you.
    Mr. McClintock. The point is the national economy was 
chugging along pretty well then. These areas were depressed 
compared to the national numbers. That suggests they were 
harmed, not helped.
    Let me tell you I represent Modoc County in the northeast 
corner of California. The Federal Government owns most of Modoc 
County. It has been utterly impoverished by environmental 
restrictions on timber and mineral development, but they still 
have a struggling grazing operation which is basically 
supporting them. One of the areas contemplated to be closed by 
invoking the Antiquities Act is about a half a million acres of 
BLM land in Modoc County that will be declared a monument under 
the Antiquities Act and destroy what remains of Modoc County's 
employment. Will they perform better or worse that the national 
numbers? I am not sure, but I will tell you this; they will 
perform far less than they could have with those grazing 
operations in place, which I suspect is Mayor Taylor's 
experience as well, is it not?
    Mr. Taylor. That is true.
    Mr. McClintock. The Antiquities Act was meant, in 1906, 
solely to protect open archeological digs from looting. It gave 
the President the ability when an archeological site was 
discovered on public lands to designate it as a monument to 
protect it from looting. How does that in any way comport with 
the President simply with a sweep of the pen setting a half a 
million acres in Modoc County off limits to the grazing 
operations that are pretty much supporting what is left of that 
county's economy? Mr. Taylor, any thoughts on that?
    Mr. Taylor. Well, it doesn't make sense to me why you would 
tie up all that land to protect the looting. Right now if you 
ask me, the colleges and whatnot are looting because they come 
there. They take it away and nobody gets to see it then.
    Mr. McClintock. Mr. Taylor, you had mentioned job losses as 
a direct result of the designation in your area, is that 
correct?
    Mr. Taylor. That is correct.
    Mr. McClintock. How many job losses and what kind of jobs?
    Mr. Taylor. Well, we had a forest industry which sets right 
to the side of the Grand Staircase-Escalante National Monument. 
We lost 65 jobs at the end of 2009 and 2010, and I believe----
    Mr. McClintock. Mr. Rasker, if I could, Mr. Rasker, would 
you please explain to us how that is good for the economy?
    Dr. Rasker. I don't think the loss of any jobs is good for 
the economy.
    Mr. McClintock. Well, that is the first thing you have said 
today that makes any sense.
    I yield back.
    Mr. Bishop. Thank you. Mr. Kildee, do you have questions?
    Mr. Kildee. Thank you, Mr. Chairman.
    Dr. Rasker, are you able to offer some theories as to why 
local economies seem to improve after a monument designation? 
Is it the attraction for retirement, or quality of life, or a 
variety of reasons?
    Mr. Bishop. Dale, can I get you to pull that microphone 
into your face here so you can be heard?
    Mr. Kildee. My question was what do you feel attracts 
people to come to a place and the economy improve after the 
designation? Is it because it is a place for retirement or 
improvement of quality of life or other reasons?
    Dr. Rasker. It is a good question. This has been studied 
quite extensively by a lot of academics, and there is a variety 
of reasons. One of them is places that are attractive places to 
live are also attractive places to do business. It is a good 
place to recruit employees. There are also attractive places to 
retire.
    And the Grand Staircase-Escalante National Monument, the 
two counties next to it, non-labor income, retirement and 
investment income is about 36 percent, so it is over a third 
and it has grown significantly. So you have an aging 
population, retiring baby boomers. You have several professions 
that are more foot loose than they ever have before being able 
to locate in rural areas, and then you have on top of that 
tourism, so those are some of the reasons.
    Mr. Kildee. Mayor Taylor, what role does PILT, the payment 
in lieu of taxes, what does that do in your area? Now I know 
the PILT dollars go to the county rather than to the city 
itself. What role do the PILT payments play in your area?
    Mr. Taylor. I apologize for not knowing the answer to that. 
I really don't know.
    Mr. Kildee. But it did indicate that Congress was not 
insensitive to economy of an area when it set up the PILT 
program. We are concerned. We all come from localities, right?
    Mr. Taylor. Correct.
    Mr. Kildee. And you are the Mayor of an incorporated city. 
It might be interesting, you know, to have your treasurer or 
someone on your staff to just--even though I think this money 
flows directly to the county, you are part of that county, and 
see how the PILT program does assist your economy.
    Mr. Taylor. I believe that it assists in our schools, but 
can I answer this way? I look at all the ground, the 1.8 
million acres that have been tied up back east. A lot of that 
ground is private ground. They pay taxes on that ground. What 
would that do to my community if there was a tax base?
    Let us say you sell that 1.8 million acres to somebody for 
fair market value, and then let us collect taxes on that each 
year, and it doesn't matter whether you sell it to an 
environmental group or whatever that wants to take care of it. 
It would bring an income into my community. Look at the coal 
and the oil and the natural gasses. Those items would bring a 
heck of a lot more money than what you are talking about. That 
is my opinion.
    Mr. Kildee. Well, I just wanted to point out that we have 
not been maybe sensitive enough. Maybe we should do more on 
PILT. Maybe we should appropriate more money for the PILT 
program.
    Would you support selling any of the national monuments to 
get more money for other purposes?
    Mr. Taylor. Of the national monument? I would love to see 
some of the coal being able to be used and the oil and the 
timber industry, you bet. Timber is a renewable resource. I 
think we could do something with it rather than just burn it, 
just a controlled burn. I do believe that some of that could be 
sold off.
    Now, there is a beauty in Escalante, and I would love, I 
would love to have people come there and spend millions. If you 
would have them come and do that, that would be great for my 
community, but right now, history has said in the last 10 years 
or so that that is not happening. We are not getting that 
revenue that was promised. We are down in numbers. Our schools 
are about to die. We have a uranium facility in Ticaboo, which 
is in Garfield County, that could use the uranium that could 
mill the uranium that comes off the Arizona strip. That is an 
impact to our communities. We need that help.
    Mr. Bishop. I appreciate that. Mr. Labrador, you are next.
    Mr. Labrador. Thank you, Mr. Chairman.
    Dr. Rasker, I represent Idaho and even though Craters of 
the Moon is not in my district, there are only two districts in 
Idaho. I am just looking at your data here, and I have some 
questions.
    First, just a quick question. When you say services 
employment what do you really mean by services?
    Dr. Rasker. It is a category used by the U.S. Department of 
Commerce. It is fairly broad and it includes engineers, 
doctors, lawyers, but it also includes relatively lower paying 
industries such as those you often find in tourism.
    Mr. Labrador. So when you talk about service jobs here in 
your report are you talking about high wages or low wage jobs?
    Dr. Rasker. It is a combination of both.
    Mr. Labrador. And do you know what the average wage is that 
is being represented here in your report is?
    Dr. Rasker. In the service industries?
    Mr. Labrador. Yes.
    Dr. Rasker. It depends on the area that we are looking at. 
In Blaine County, of course, the average service industry is 
quite a much higher than it would be in surrounding counties.
    Mr. Labrador. Correct. Correct. I am just looking at your 
report and you said that there was an increase in activity, but 
we know in Idaho that some of our higher paying jobs are in the 
mining industry and sometimes in the agricultural industry, and 
service jobs typically don't pay as much because you are 
talking a lot about, you know, hotel and other services, and 
according to your report we saw from 1998 to 2008 an increase 
of 15.7 percent in service jobs, is that correct?
    Dr. Rasker. Pardon me. Let me look up the statistics for--
now which monument are you talking about?
    Mr. Labrador. Craters of the Moon region.
    Dr. Rasker. Craters of the Moon. From 2000 to 2008, the 
monument was designated in 2000.
    Mr. Labrador. Correct.
    Dr. Rasker. So population growth, 4 percent; job growth of 
19 percent.
    Mr. Labrador. But most of those jobs came in the service 
industry, correct?
    Dr. Rasker. That is correct, yes, and some of it is also 
retirement-related, so in the health care industry.
    Mr. Labrador. But if we look at agriculture, for example, 
there was a decrease in the number of jobs during that time, is 
that correct?
    Dr. Rasker. Let me look for a second. Agriculture lost, 
mining grew, and travel and tourism grew.
    Mr. Labrador. OK. Actually, but if you look at mining, for 
example, from 1998 to 2008, there was a 7 percent increase in 
mining job.
    Dr. Rasker. Yes, that is correct.
    Mr. Labrador. In non-mining jobs, there was a 13 percent 
increase, is that correct?
    Dr. Rasker. That is correct. You got faster growth in the 
service industries than you do have in mining, yes.
    Mr. Labrador. Exactly, and what I am saying in Idaho 
typically service industry is a lower paying industry than the 
mining jobs that typically have much higher paying jobs. So in 
those communities of the higher paying jobs actually lost 
ground versus the lower paying jobs in the service industries. 
Would you agree with that?
    Dr. Rasker. It depends which community you are talking 
about. There are some communities where you have access to 
major markets where some of the service industry workers are, 
doctors, engineers, architects, and then you have other 
communities that are more isolated where those types of 
professions are more difficult to have those in those remote 
areas.
    Mr. Labrador. So your data is really not telling us 
anything because you are not really comparing the wages and the 
things that--the types of jobs that were actually--you know, 
the amount of money that people are making in those jobs that 
were created.
    Dr. Rasker. Wages differ from industry to industry. What we 
asked is whether there was an increase in economic growth 
following the designation of the monument.
    Mr. Labrador. And as the question was asked by Mr. 
McClintock earlier, between 2000 and 2008, Idaho was one of the 
fastest growing states in the United States and one of the 
fastest growing segments of the United States, so that growth, 
and I want to make this clear, your data doesn't show any 
correlation between the creation of the monument and the growth 
of that area, correct?
    Dr. Rasker. It shows a very strong correlation. It just 
doesn't prove cause and effect.
    Mr. Labrador. So you don't give any credit to the fact that 
Idaho was having actually the strongest growth and the most--
you think most people are moving to Idaho because of the 
monument creation, is that what you are trying to tell us?
    Dr. Rasker. No, I am not.
    Mr. Labrador. OK. So people are moving to Idaho because it 
is a great place to live that had low taxes, low regulation and 
a lot of other things, and a great place to live just like Utah 
and other places, that is why people are moving to those 
stages, not because a new monument was created.
    Dr. Rasker. Well, I think protected public lands like 
monuments are part of that quality of life that attracts 
people.
    Mr. Labrador. All right, thank you.
    Mr. Bishop. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman, and with apologies to 
all for my late arrival. I would like to ask a couple of 
questions that might be revisiting territory that has already 
been covered, but I think it is important and I certainly would 
like to understand better.
    Mr. Rasker, when you look at the jobs that are created you 
said jobs grew faster than the population with employment, 
increasing more than four times faster than the 8 percent 
population growth during that period. This is in Garfield and 
Kane Counties near Grand Staircase-Escalante.
    How did this compare with the rest of the state?
    Dr. Rasker. Slower than the state as a whole.
    Mr. Holt. And how did it compare with similar rural 
counties?
    Dr. Rasker. Kane County was a little bit faster than its 
rural peers in the state, and Garfield County was a little 
slower.
    Mr. Holt. And this is a net growth after discounting for 
any loss of jobs from resource exploitation or minerals mining, 
is that right?
    Dr. Rasker. That is correct. It is just a net increase in 
jobs.
    Mr. Holt. OK. Now, Mr. Labrador, I guess, was asking you 
about the kinds of jobs and you said it was a full range. Now, 
I see from your prepared testimony and maybe you have already 
covered this, but it is worth clarifying, you say that in the 
area adjacent to Canyons of the Ancients the per capita income 
grew by 15 percent and near Grand Staircase-Escalante by 30 
percent. Do I read this correctly? So, the per capita income 
actually rose.
    Dr. Rasker. In the counties adjacent to the Grand 
Staircase-Escalante National Monument, the real per capita 
income grew by 30 percent after the designation.
    Mr. Holt. So, there were some low paying jobs created but 
overall salaries went up. Now, did you also look at what that 
meant for taxes? The Mayor was talking about the loss of taxes 
from the loss of mineral extraction and so forth. Do you know, 
was there a net gain in taxes, taxes paid?
    Dr. Rasker. We did not investigate changes in taxes over 
time.
    Mr. Holt. OK. I think I won't take the Committee's time for 
other questions now. I thank you very much.
    Mr. Bishop. Thank you. Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. I don't have any 
questions, but I will make a few comments.
    All of these bills seem to me to be very modest, very 
moderate, very minimal attempts to give the people a little 
more say about what happens to the land around them, and remove 
a little secrecy which has been in the process to some extent 
in the past.
    I can well remember the great lengths the Clinton 
Administration went to to keep secret the designation of the 
Grand Staircase-Escalante Monument and midnight phone calls, 
and all sorts of efforts were made to keep the people there 
from knowing what was happening or understanding what was 
happening to them.
    To restrict all this land all over the country really helps 
foreign energy producers, but it really hurts lower income and 
working people by destroying jobs and driving up the prices. 
These bills, it seems to me, want to keep a minority of wealthy 
environmental radicals from running roughshod over the rights 
of the majority of the people who live in those areas, and I 
think it is very significant that while we have a researcher 
who doesn't live in the area telling us how good this is, but 
the man who actually--the witness who actually lives there 
among the people has told us from his heart how much this has 
really hurt the poor people and the families who live in this 
area.
    I have noticed in the past that all these environmental 
radicals seems to come from very big business or universities 
or government, and from cities and they are not ranchers or 
farmers and small business people who are out there having to 
meet payrolls and who are having to scrape by to make a very 
difficult living. We already have 30 percent of the land in 
this country is owned or controlled by the Federal Government, 
and we have another 20 percent that are owned or controlled by 
state and local governments and quasi-governmental agencies, so 
that means half of the land is just pretty much tied up and 
then we keep putting more and more limitations and restrictions 
on the remaining land that is in the private hands, and if we 
don't wake up in this country and realize how important private 
property is to both our freedom and our prosperity, we are 
going to--we are never going to be able to recover economically 
and we are going to drastically change what this country has 
been throughout its history.
    So, I thank you very much for giving me this time.
    Mr. Bishop. Thank you. I have a few questions I would like 
to ask. Mr. Rasker, let me start with you.
    When you did your study did you include data from every 
surrounding county on these 17 national monuments?
    Dr. Rasker. Yes, we did.
    Mr. Bishop. Every one. Because when I look at the map that 
you supplied to me there is a vast discrepancy. Several of 
these maps you have shown me where the entity is, as was for 
the counties, there are some surrounding counties that were not 
included. Almost all of those surrounding counties have a high 
degree of unemployment. Why were they not included? Either your 
map is wrong or your data is wrong. Which one is it?
    Dr. Rasker. What we did we looked at counties that had 
access to the national monuments so they were really----
    Mr. Bishop. So you didn't do every surrounding county.
    Dr. Rasker. No, if there was a----
    Mr. Bishop. And some of these counties--let me finish this 
because I have only got five minutes. Some of these counties 
that were left off are very suspect. Let me go to Grand 
Staircase-Escalante specifically.
    Did you include Kane, Garfield, or Kane, Garfield and 
Washington County?
    Dr. Rasker. We looked at Kane and Garfield.
    Mr. Bishop. But not Washington County even though it is 
covered on your map as covering Washington County? So if you 
are just doing Kane and Garfield, that is great. You say in 
your report that there are 8,200 jobs in Kane and Garfield 
County. That is unique when you have a population of less than 
12,000 in that county, not counting kids and 10 percent of the 
one county's population is unemployed. How in the hell can you 
come up with those numbers?
    Dr. Rasker. In-commuting has gone up?
    Mr. Bishop. What?
    Dr. Rasker. In-commuting has gone up, and most of the job 
growth has gone to locals. We don't have much population 
growth.
    Mr. Bishop. They are commuting to Escalante?
    Dr. Rasker. Yes.
    Mr. Bishop. Mr. Taylor, how long does it take you to get 
from St. George, the nearest lodge, to the Escalante Monument?
    Mr. Taylor. Two and a half hours.
    Mr. Bishop. OK. What type period did you use when you were 
making your study? Were they done during high tourism peaks?
    Dr. Rasker. We looked at annual data.
    Mr. Bishop. Say what?
    Dr. Rasker. We looked at annual data.
    Mr. Bishop. And it was not adjusted for seasonal work?
    Dr. Rasker. No.
    Mr. Bishop. I wish to ask unanimous consent to put in a 
letter from Garfield County in here which once again in this 
letter they are using their statistics. They tell you quite 
frankly that real personal income has decreased, real income 
per capita has decreased, school enrollment has decreased 
within the county. This is in direct contradiction to the 
report that you came up with. I ask that this be put in the 
record. OK.
    [NOTE: The statistics referenced above can be found in the 
testimony of Mayor Jerry Taylor.]
    Mr. Bishop. Mr. Taylor, let me go to some of yours. How 
long after the monument designation was Escalante City 
inundated with tourism and economic development resembling the 
benefits that Mr. Rasker has claimed?
    Mr. Taylor. We are still waiting.
    Mr. Bishop. National monuments are only supposed to include 
land owned or controlled by the Federal Government. How were 
private and state lands impacted by the Clinton designation?
    Mr. Taylor. I believe that some of the state lands had to 
be traded for Federal land somewhere else which impacted our 
community.
    Mr. Bishop. Yes, there was supposedly a trade because when 
the Grand Staircase-Escalante was made, the Administration had 
no clue what happened to state trust lands that affected 
education.
    Mr. Taylor. That is right.
    Mr. Bishop. So they made a deal with the trade. Secretary 
Babbitt was here several weeks ago and said they had 
consummated that trade. It is interesting to note the details 
of that trade have never been consummated. The land that we 
were promised in other areas has yet to be given to the State 
of Utah over a decade later.
    Mayor, can you tell me what impact the Grand Staircase has 
had on local schools and your city and county resources?
    Mr. Taylor. Well, our schools are in trouble right now. We 
have declined since 1996, and they are in real trouble. We need 
that rural funding to keep us alive.
    Mr. Bishop. Mr. Taylor, going back to one question that 
Representative Kildee asked you about PILT again. In your view, 
is PILT supposed to replace taxes that are lost for property 
taxes or is it supposed to compensate for lost jobs? Is it 
anywhere equal to the value, PILT funding equal to the value 
that you would get from actual taxation?
    Mr. Taylor. No.
    Mr. Bishop. Does it compensate for lost jobs?
    Mr. Taylor. No.
    Mr. Bishop. Mr. Rasker, one of the fundamentals of 
economics is opportunity costs. Do any of your analysis look at 
foregone economic opportunities like lost jobs, revenue, lease 
extraction, energy potential?
    Dr. Rasker. No, we only looked at growth since designation.
    Mr. Bishop. I do appreciate the first thing you said saying 
that the cause/effect relationship is no way proven by any of 
the data you have, but actually looking at the Grand Staircase-
Escalante the data is suspect. Looking at the maps you provided 
and not doing counties that are adjacent to these elements but 
indeed have high unemployment makes your data suspect, and I 
agree with you, there is no cause/effect relationship between 
the data you have given us and the existence of these monuments 
that are here.
    Let me just say in the last four seconds, contrary to what 
has been said, there has been harm created by Grand Staircase-
Escalante; just school trust lands, there was harm that was 
done to corridors, for the electricity to the co-ops, there was 
harm done to private property holders, and to come to some kind 
of resolution of the 2477 harm that was done, and one of the 
things we have failed to realize is that in the autocratic 
world of 1906, when a Czar, a Kaiser, and King Edward were 
still fighting Lord Salisbury for control of the foreign policy 
having a President make these kind of arbitrary decisions was 
greatly accommodated in the world of an autocratic leadership, 
but it was never intended to be that way, and having 
legislative function in an Executive Branch it is wrong, it is 
wrong, it was wrong then, it is wrong today, and it needs to be 
abdicated, it needs to be corrected, and any of these bills 
will do that, and I appreciate that.
    Are there any other additional questions for any of our 
guests? If not, I appreciate you both being here. Thank you for 
coming here. Thank you for your testimony. Thank you for 
waiting. Mayor, I appreciate the opportunity of having you here 
with us. Once again I am sorry for my slip up in the process.
    Mr. Taylor. No, we are fine.
    Mr. Bishop. This meeting is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

      Statement of The Honorable Paul A. Gosar, a Representative 
                 in Congress from the State of Arizona

    Good morning, first I would like to take this opportunity to thank 
Chairman Rob Bishop and my fellow Arizonan Ranking Member Raul Grijalva 
for allowing me to take part in today's hearing.
    A fundamental aspect of good government is the rule of law. The 
rule of law includes due process. Currently, under the existing law, a 
president can unilaterally, without any public input, without one 
congressional hearing, and without any of the hallmarks of 
transparency, remove millions of acres of public land from public 
access and public use. This law needs to be changed, but until it is, 
the western states at highest risk for federal abuse need exemptions.
    The National Monument designation process, as any public land 
designation, is of particular interest to my constituents. Arizona's 
First Congressional District is comprised of over twenty-six million 
acres of federally-administered and Native American lands, which is 
nearly 70% of the total land. Due to the prevalence of this public 
land, the way these lands are administered by the federal government 
has a direct impact on almost every person residing in my district.
    Rural Arizona communities depend on the multiple-use of public 
lands for their livelihoods. As I traveled throughout my district 
during this August recess, my constituents expressed concerns about 
access to our public lands at nearly every corner of my 58,000 square 
mile district. These concerns ranged from the ability to develop 
domestic sources of energy, timber harvesting, grazing, hunting, 
fishing, and family recreation
    Too often we find that some federal land designations are causing 
endless bureaucratic delays, litigation and restrictions that could 
completely lock-up much of the large and needed store of wealth and 
recreational opportunities our vast system of public lands can provide. 
In a district like mine, dominated by federally administered lands, 
these burdens disproportionately stifle economic productivity, leading 
to some of the highest unemployment rates in the country and in some 
cases threatening the ability of the affected communities to provide 
public education and other basic services to their residents.
    There is a reason the ability to set aside federal land generally 
rested with Congress. These federal land designations have significant 
direct impacts on our constituents. Sometimes these access restrictive 
designations are absolutely necessary for the preservation of our 
natural and historic treasures. Unfortunately, in other instances, 
these designations are counterproductive and cause more harm than good. 
Congressional authority to establish these land designations is an 
integral part of the transparent and public process that will ensure a 
designation is not only appropriate, but accepted by our constituents.
    This is why I believe it is critical this Congress reforms the 
National Monument designation process. While it is extremely important 
to protect our country's natural and historical treasures, no 
President, regardless of what party he belongs to, should have the 
power to unilaterally declare a land designation that has some of the 
most stringent restrictions on public access.
    When Congress abdicated its duty to designate National Monuments 
and gave this power to the President via the Antiquities Act of 1906, 
Congress never intended the President to use that authority the way it 
has been utilized. At the time, the law was enacted over concerns about 
protecting mostly prehistoric Indian ruins and artifacts--collectively 
termed ``antiquities''--on federal lands in the West. By definition, 
the sites were to be very small--``the smallest area compatible'' with 
preserving the antiquity.
    Unfortunately, since given this power, many Presidents, Republican 
and Democrat, have abused it. Today, there are over 100 National 
Monuments located in 26 states, covering some 136 million acres. Some 
of these sites span over one million acres. At 140,000 square miles, 
Papahanaumokuakea Marine National Monument is the largest protected 
area proclaimed.
    Without a doubt many of the existing National monuments are 
extremely valuable natural and historic treasures. Nine National 
Monuments, with major contributions to our tourism economy, are located 
in Arizona's First Congressional District, Many of them draw in 
visitors to hike, hunt, camp or recreate around the monuments. My 
district's economy has a significant services component tied to tourist 
sites like the Grand Canyon National Park and some of these National 
Monuments. I appreciate the need for protections of sites; however, the 
public deserves the opportunity to have their voices heard on any land 
designation that may restrict our right to access.
    Legislation I introduced alongside Congressman Jeff Flake (AZ-06), 
H.R. 2877, and many of the other bills being discussed today will 
ensure that the designation of National Monuments has an open and 
transparent process. By ensuring no further extension or establishment 
of national monuments in Arizona can be done without the authorization 
of Congress, we would ensure the public gets to be a part of land 
designations that affect them.
    The opposition to my bill will likely paint my initiative as an 
attack on the Administration or playing politics with our public lands. 
Regardless of what political party controls the government, these 
initiatives make sense. In some case proximity to a national monument 
or like site increases the value of land or makes it more appealing to 
the consumer. In many other cases, the exact opposite is the case. 
Shouldn't our constituents have the ability to express concerns or 
support, depending on the specific proposal?
    In last year's Interior Department internal document that revealed 
the Obama Administration's plans to designate new National Monuments 
under the Antiquities Act, the Obama Administration even states that:
        ``the acceptance of preservation status is best achieved when 
        the public has an opportunity to participate in a land-use-
        planning or legislative process.''
    I introduced this legislation for that very reason. The people 
should be a part of land designation decisions. When they are, there is 
public buy-in. Isn't that what we call these lands, ``public lands?''
    Thank you again for allowing me to participate in today's hearing. 
I look forward to continuing to work to reform the National Monument 
designation process.
                                 ______
                                 

  Statement submitted for the record by The Honorable Devin Nunes, a 
 Representative in Congress from the State of California, on H.R. 302, 
        H.R. 758, H.R. 877, H.R. 845, H.R. 846, and H.R. 2147''

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify today.
    Last year, an internal document from the U.S. Department of 
Interior (DOI) revealed that the Administration was considering making 
additional national monument designations pursuant to the Antiquities 
Act of 1906. The proposed designations would restrict, without 
Congressional approval, access to millions of acres of public lands, 
thereby preventing energy production, recreation, and other job-
creating economic activities.
    With the national unemployment rate in excess of 9 percent and 14 
million Americans unemployed, we cannot afford to allow additional 
economic activity to be forever foreclosed by the stroke of the 
President's pen. Additionally, given the impact monument designations 
have on our country, we certainly cannot allow the President to create 
them unilaterally. Accordingly, I have introduced the National Monument 
Designation Transparency and Accountability Act (H.R. 758), which will 
ensure any future national monument designation is done on an informed 
basis and is accomplished through a transparent process involving 
Congress. It is supported by a coalition of nearly 50 organizations.
    Pursuant to the ``Property Clause'', Article IV, Section 3, Clause 
2, of the United States Constitution, Congress has the expressed power 
to ``make needful Rules and Regulations respecting the Territory and 
other Property belonging to the United States.'' Through the 
Antiquities Act of 1906 and other acts, Congress has delegated 
considerable land management authority to the President. For example, 
the Antiquities Act, which was enacted in response to thefts from and 
the destruction of archeological sites, allows the President to 
proclaim national monuments on federal lands that ``contain historic 
landmarks, historic and prehistoric structures, and other objects of 
historic and scientific interest.''
    President Theodore Roosevelt first used the authority to create 
Devil's Tower in Wyoming. Today, there are 71 monuments covering 
approximately 136 million acres. While the Act has been used 
appropriately in some instances, it also has been abused.
    President Clinton, asserting that Congress had not acted quickly 
enough, used his authority 22 times to proclaim 19 new monuments and to 
expand three others; with one exception, the monuments were designated 
in his last year of office. They also totaled 5.9 million acres. In the 
instance of the Giant Sequoia National Monument, they devastated the 
timber industry in Tulare County, California, and left an enduring 
legacy of double-digit unemployment and diminished communities in 
California's 21st Congressional District, which I am privileged to 
represent.
    As a life-long resident of Tulare County, I saw, and still see, the 
devastation caused by President Clinton's pen. I understand well the 
anger and frustration that many of my constituents felt when, with no 
meaningful opportunity to provide input on this momentous decision, 
their lives and communities were changed forever.
    Congress must not allow such abuses of the Antiquities Act to be 
repeated. Rather, if the Antiquities Act is going to remain law, it 
must be improved, particularly with the revelation that the current 
Administration might use the Act to designate monuments totaling as 
many as 13 million acres.
    The National Monument Designation Transparency and Accountability 
Act would provide the necessary improvements. It would also provide 
much-needed transparency to what is an opaque process.
    While the bill preserves the right of the President to act quickly 
to protect national treasures that are under threat, it also ensures 
his or her actions are confirmed by Congress. Specifically, Congress 
would have two years to affirm the President's decision to protect the 
national treasure in perpetuity. This will restore the balance between 
executive decisions and public input.
    The bill would also require the President to provide notice and the 
actual language of the proposed designation to Congress, Governors, 
local governments, and tribes within the boundaries of the proposed 
monument. Additionally, it would require the Administration to provide 
notice of public hearings and allow opportunity for public comments. 
The President would then have to report to Congress on how the 
designation would impact local tax revenues, national energy security, 
land interests, rights, and uses.
    These reforms would ensure the Antiquities Act is used 
appropriately and in accordance with its original intent. Any monument 
decisions would be made with all the pertinent information available, 
with full public participation, and Congressional approval rather than 
in the dark of the night at the behest of radical environmentalists.
    Accordingly, I look forward to working with you and our colleagues 
in the House to enact the National Monument Designation Transparency 
and Accountability Act.
                                 ______
                                 

    Statement submitted for the record by the Society for American 
  Archaeology on H.R. 302, H.R. 758, H.R. 817, H.R. 845, H.R. 846 and 
                               H.R. 2147

    The Society for American Archaeology (SAA) appreciates this 
opportunity to present the following testimony on the above-listed 
pieces of legislation being considered by the subcommittee this 
morning. These bills would amend the Antiquities Act of 1906 (the Act) 
to varying degrees, but the intent of each is to prevent current and 
future administrations from unilaterally designating new National 
Monuments. We recognize the tensions that federal land management 
decisions can create, particularly in the Western U.S. Nevertheless, 
SAA opposes these bills on the grounds that they will do great harm to 
the first, and one of the most effective, conservation statutes the 
nation has.
    SAA is an international organization that, since its founding in 
1934, has been dedicated to the research about and interpretation and 
protection of the archaeological heritage of the Americas. With nearly 
7,000 members, SAA represents professional archaeologists in colleges 
and universities, museums, government agencies, and the private sector. 
SAA has members in all 50 states as well as many other nations around 
the world.
    The Act is one of the most valuable tools that we possess for 
protecting critical historic and natural resources located on our 
nation's public lands. Conserving the archaeological record of those 
who lived before us was a primary reason that Theodore Roosevelt, one 
of our most far-seeing Presidents, championed the passage of the law in 
1906. In fact, it is no exaggeration to say that some of the nation's 
most important and valuable archaeological sites, including Chaco 
Culture and Casa Grande Ruins, are still in existence today thanks to 
the protection afforded them as National Monuments.
    More than one century and 124 monuments after enactment of the Act, 
the statutory framework concerning National Monuments remains well-
balanced. The Act allows the President to proceed quickly to protect 
important cultural and natural objects and values on federal lands. 
Congress has its own authority to alter the boundaries and direct the 
management policies of existing monuments, and designate new ones 
legislatively. Historically, the creation of some of the monuments was 
controversial. The majority were not. Given the fact that many 
communities in the West derive their economies from multiple uses of 
federal lands, some opposition was inevitable. Nevertheless, we believe 
that these disputes should be seen not only as exceptions to the rule, 
but also as part of a larger disagreement over the effect of federal 
land management policies on Western state and local economies.
    These differences of opinion should not be ignored. The answer, 
however, is not to weaken the Act. Instead, we respectfully suggest 
that whatever difficulties there are between the White House, Congress, 
and states affected by the creation of Monuments be addressed through 
greater openness and consultation during the deliberation process, 
prior to either administrative or legislative designation. Greater 
discussion could alleviate a substantial amount of the mistrust that 
currently exists.
    SAA thanks the subcommittee for its time and consideration of this 
important issue.
                                 ______
                                 

   Statement submitted for the record by the U.S. Department of the 
 Interior Concerning Six Bills to Amend the Act Popularly Known as the 
                        Antiquities Act of 1906

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Administration on six bills--
H.R. 302, H.R. 758, H.R. 817, H.R. 845, H.R. 846, and H.R. 2147--to 
amend the Act popularly known as the Antiquities Act of 1906 
(``Antiquities Act'').
    The Administration strongly opposes these six bills. The 
Antiquities Act has been used by Presidents of both parties for more 
than 100 years as an instrument to preserve and protect critical 
natural, historical, and scientific resources on Federal lands for 
future generations. The authority has contributed significantly to the 
strength of the National Park System and the protection of special 
qualities of other Federal lands--resources that constitute some of the 
most important elements of our nation's heritage. The six bills, which 
would limit the President's authority in various ways, would undermine 
this vital authority.
    Of the six bills under consideration, H.R. 845, H.R. 846, and H.R. 
2147 would bar the use of the Antiquities Act to extend or establish 
new national monuments in Montana, Idaho, and Utah, respectively, 
unless authorized by Congress. H.R. 817 would require Congressional 
approval for national monuments designated by the President and would 
be applicable to designations in any state. H.R. 302 would require the 
approval of a state legislature and governor before the President could 
designate a national monument and would prohibit restrictions on public 
use of national monuments until there is a public review period and 
state approval of the monument. H.R. 758 would require national 
monument designations to be approved by Congress within two years of a 
presidential proclamation in order to maintain their national monument 
status and would also impose certain requirements affecting the 
processes for proposing and managing national monuments.
    The use of the Antiquities Act was addressed in some of the 
listening sessions associated with the America's Great Outdoors 
initiative last year, and the public voiced strong support for the 
designation of unique places as national monuments. As a result of this 
public input, one of the recommendations of the America's Great 
Outdoors report, issued in February 2011, was to implement a 
transparent and open approach in the development and execution of new 
monument designations. The Administration supports conducting an open, 
public process that considers input from local, state, and national 
stakeholders before any sites are considered for designation as 
national monuments through the Antiquities Act. All proposed 
designations would respect valid existing rights on federal lands and 
any other relevant provisions of law.
    The Antiquities Act was the first U.S. law to provide general 
protection for any cultural or natural resource on Federal lands. In 
the last decades of the 19th Century, educators and scientists joined 
together in a movement to safeguard archeological sites on Federal 
lands, primarily in the West, that were endangered by haphazard digging 
and purposeful, commercial artifact looting. After a generation-long 
effort to pass such a law, President Theodore Roosevelt signed the 
Antiquities Act on June 8, 1906, thus establishing the first general 
legal protection of cultural and natural resources on Federal lands.
    The Antiquities Act set an important precedent by asserting a broad 
public interest in the preservation of natural and cultural resources 
on public lands. The law provided much of the legal foundation for 
cultural preservation and natural resource conservation in the nation. 
It created the basis for the Federal government's current efforts to 
protect archeological sites from looting and vandalism.
    After signing the Antiquities Act into law, President Roosevelt 
used the Antiquities Act eighteen times to establish national 
monuments. A number of those first monuments include what is now known 
as Grand Canyon National Park, Petrified Forest National Park, Chaco 
Culture National Historical Park, Lassen Volcanic National Park, 
Tumacacori National Historical Park, and Olympic National Park.
    Since President Roosevelt, thirteen U.S. Presidents have used the 
Antiquities Act one hundred and thirty-six times to establish or expand 
national monuments. Congress has redesignated thirty-four of these 
national monuments as other types of national park units. The National 
Park Service continues to administer another seventy-five as national 
monuments. Some of our most iconic national monuments established by 
presidential proclamation include Devils Tower, Muir Woods, Statue of 
Liberty, and Acadia National Park. In addition, the Bureau of Land 
Management administers fourteen national monuments designated by 
presidential proclamation, including Aqua Fria in Arizona and Canyons 
of the Ancients in Colorado, which preserve significant archeological 
sites, and the U.S. Fish and Wildlife Service administers three 
national monuments.
    Most recently, President George W. Bush used the Act to issue 
proclamations that established six national monuments. The 2006 
designation of the African Burial Ground National Monument in New York 
City preserves a section of what was the largest historic African and 
African-American cemetery in the country, honoring the early 
contributions of Africans and African-Americans to the development of 
our nation. President Bush also designated the Northwestern Hawaiian 
Islands Marine National Monument, renamed the Papahanaumokuakea Marine 
National Monument, which is the largest national monument ever 
proclaimed. In 2008, President Bush established by proclamation the 
World War II Valor in the Pacific National Monument to recognize the 
sacrifices made by military and civilians during the conflict. It 
protects the USS Arizona Memorial, one of the most heavily visited 
sites managed by the National Park Service, as well as the Tule Lake 
Segregation Center in California, where Japanese Americans were 
confined against their will, and other important sites. Another three 
monuments were established in 2009 to protect marine resources. These 
sites are the Mariana Trench Marine, Pacific Remote Islands Marine, and 
Rose Atoll Marine National Monuments.
    Without the President's authority under the Antiquities Act, it is 
unlikely that many of these special places would have been protected 
and preserved as quickly and as fully as they were. As Congress 
intended when it enacted the Antiquities Act, the statute provides the 
necessary flexibility to respond quickly to impending threats to 
resource protection, while striking an appropriate balance between 
legislative and executive decision making.
    The Antiquities Act has a proven track record of protecting--at 
critical moments--especially sensitive Federal lands and the unique 
cultural and natural resources they possess. These monuments have 
become universally revered symbols of America's beauty and legacy. 
Though some national monuments have been established amidst 
controversy, who among us today would dam the Grand Canyon or turn Muir 
Woods over to development? These sites are much cherished landscapes 
which help to define the American spirit. They speak eloquently to the 
wisdom of retaining the Antiquities Act is its current form.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Administration.

                                 <all>

</pre></body></html>
